<html>
<title> - PRESERVING AN OPEN INTERNET FOR CONSUMERS, SMALL BUSINESSES, AND FREE SPEECH</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 PRESERVING AN OPEN INTERNET FOR CONSUMERS, SMALL BUSINESSES, AND FREE 
                                 SPEECH

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            FEBRUARY 7, 2019
                               __________

                            Serial No. 116-4


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-602 PDF                WASHINGTON : 2020                           
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman

BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Communications and Technology

                        MIKE DOYLE, Pennsylvania
                                 Chairman

JERRY McNERNEY, California           ROBERT E. LATTA, Ohio
YVETTE D. CLARKE, New York             Ranking Member
DAVID LOEBSACK, Iowa                 JOHN SHIMKUS, Illinois
MARC A. VEASEY, Texas                STEVE SCALISE, Louisiana
A. DONALD McEACHIN, Virginia         PETE OLSON, Texas
DARREN SOTO, Florida                 ADAM KINZINGER, Illinois
TOM O'HALLERAN, Arizona              GUS M. BILIRAKIS, Florida
ANNA G. ESHOO, California            BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
G. K. BUTTERFIELD, North Carolina    BILL FLORES, Texas
DORIS O. MATSUI, California, Vice    SUSAN W. BROOKS, Indiana
    Chair                            TIM WALBERG, Michigan
PETER WELCH, Vermont                 GREG GIANFORTE, Montana
BEN RAY LUJAN, New Mexico            GREG WALDEN, Oregon (ex officio)
KURT SCHRADER, Oregon
TONY CARDENAS, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12

                               Witnesses

Denelle Dixon, Chief Operating Officer, Mozilla Corp.............    14
    Prepared statement...........................................    16
    Answers to submitted questions...............................   166
Ruth Livier, actress, writer, and UCLA doctoral student..........    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................   167
Joseph Franell, Chief Executive Officer, Eastern Oregon Telecom..    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................   169
Jessica J. Gonzalez, Vice President of Strategy and Senior 
  Counsel, Free Press and Free Press Action Fund.................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   171
Michael K. Powell, President and Chief Executive Officer, NCTA-
  The Internet & Television Association..........................    61
    Prepared statement...........................................    63
    Answers to submitted questions...............................   187
Tom Wheeler, Visiting Fellow, Brookings Institution, Senior 
  Research Fellow, Harvard Kennedy School........................    71
    Prepared statement...........................................    73
    Answers to submitted questions...............................   190

                           Submitted Material

Article of January 24, 2018, ``Net Neutrality Violations: A Brief 
  History,'' by Timothy Karr, Free Press, submitted by Mr. 
  Pallone........................................................   125
Letter of May 28, 2010, from Mr. Pallone to Julius Genachowski, 
  Chairman, Federal Communications Commission, submitted by Mr. 
  Walden.........................................................   128
Letter of June 27, 2017, from A Better Wireless, et al., to Ajit 
  Pai, Chairman, Federal Communications Commission, submitted by 
  Mr. McNerney...................................................   130
Letter of October 15, 2009, from Hon. Gregory W. Meeks, a Member 
  of Congress, et al., to Julius Genachowski, Chairman, Federal 
  Communications Commission, submitted by Mr. Bilirakis..........   132
Majority Staff Report of the Senate Committee on Homeland 
  Security and Government Affairs, ``Regulating the Internet: How 
  the White House Bowled Over FCC Independence,'' February 29, 
  2016, submitted by Mr. Long \1\
Article, ``Broadband groups cut capex despite net neutrality 
  win,'' by Kiran Stacey, Financial Times, submitted by Mr. Welch   138
Article of January 24, 2019, ``It's Now Clear None of the 
  Supposed Benefits of Killing Net Neutrality Are Real,'' by Karl 
  Bode, Motherboard, submitted by Mr. Lujan......................   140
Report of The Center for Internet and Society, ``Filtering Out 
  the Bots: What Americans Actually Told the FCC about Net 
  Neutrality Repeal,'' by Ryan Singel, October 2018, submitted by 
  Mr. Lujan \2\
Analysis, ``Unique Net Neutrality Comments to the FCC in 2017 
  from NM District #3,'' submitted by Mr. Lujan \3\
Letter of February 7, 2019, from Jonathan Schwantes, Senior 
  Policy Counsel, Consumer Reports, to Mr. Doyle and Mr. Latta, 
  submitted by Mr. Doyle.........................................   143
Letter of February 6, 2019, from Kathi Kromer, Associate 
  Executive Director, Washington Office, American Library 
  Association, to Mr. Doyle and Mr. Latta, submitted by Mr. Doyle   146
Letter of February 7, 2019, from TechFreedom, et al., to Mr. 
  Doyle and Mr. Latta, submitted by Mr. Doyle....................   149
Article of February 6, 2019, ``Hundreds of Bounty Hunters Had 
  Access to AT&T, T-Mobile, and Sprint Customer Location Data for 
  Years,'' by Joseph Cox, Motherboard, submitted by Mr. Doyle....   153

----------

\1\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190207/108845/
HHRG-116-IF16-20190207-SD009.pdf.
\2\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190207/108845/
HHRG-116-IF16-20190207-SD012.pdf.
\3\ The analysis has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190207/108845/
HHRG-116-IF16-20190207-SD013.pdf.


 
           
 PRESERVING AN OPEN INTERNET FOR CONSUMERS, SMALL BUSINESSES, AND FREE 
                                 SPEECH

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2019

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:02 a.m., in 
room 2322, Rayburn House Office Building, Hon. Mike Doyle 
(chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, McNerney, Clarke, 
Loebsack, Veasey, McEachin, Soto, O'Halleran, Eshoo, 
Butterfield, Matsui, Welch, Lujan, Schrader, Cardenas, Pallone 
(ex officio), Latta (subcommittee ranking member), Shimkus, 
Olson, Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, 
Walberg, Gianforte, and Walden (ex officio).
    Also present: Representative Rodgers.
    Staff present: Jeffrey C. Carroll, Staff Director; Jennifer 
Epperson, FCC Detailee; Evan Gilbert, Press Assistant; Waverly 
Gordon, Deputy Chief Counsel; Alex Hoehn-Saric, Chief Counsel, 
Communications and Technology; Zach Kahan, Outreach and Member 
Service Coordinator; Jerry Leverich, Counsel; Dan Miller, 
Policy Analyst; Joe Orlando, Staff Assistant; Kaitlyn Peel, 
Digital Director; Alivia Roberts, Press Assistant; Chloe 
Rodriguez, Policy Analyst; Mike Bloomquist, Minority Staff 
Director; Robin Colwell, Minority Chief Counsel, Communications 
and Technology; Kristine Fargotstein, Minority Detailee, 
Communications and Technology; M. T. Fogarty, Minority Staff 
Assistant; Theresa Gambo, Minority Financial and Office 
Administrator; Peter Kielty, Minority General Counsel; Tim 
Kurth, Minority Deputy Chief Counsel, Communications and 
Technology.
    Mr. Doyle. I think all Members have taken their seats. I 
know we are getting used to where we sit right now because we 
have done a little switching.
    But I want to call the Subcommittee on Communications and 
Technology to order. Before we get started, I want to 
congratulate Congressman Bob Latta on taking over the ranking 
member.
    Bob, I look forward to working with you in this Congress to 
address our shared interests, and I would also like to 
introduce the new members of the committee on the majority side 
and welcome them to the subcommittee.
    They are Congressman Mark Veasey of Texas, Congressman 
Donald McEachin of Virginia, Congressman Darren Soto of 
Florida, and Congressman Tom O'Halleran of Arizona.
    And we also have some new friends and returning favorites 
who have also joined the subcommittee, including Congresswoman 
Diana DeGette, who is holding a hearing downstairs and probably 
will not make it up here today.
    Ben Ray Lujan of New Mexico, Kurt Schrader of Oregon, and 
Tony Cardenas of California--I look forward to working with all 
of you.
    Bob, I will yield to you if you want to introduce your new 
Members.
    Mr. Latta. Thank you very much, and Mr. Chairman, I want to 
congratulate you on assuming the gavel and I really look 
forward to working with you.
    As we all know, this is the greatest committee in Congress, 
and this is a great subcommittee to be on. So I look forward to 
working with you, and we all know that the bipartisanship that 
this committee has exhibited through the years is exemplary, 
and I think over 94 percent of the bills that went out of the 
committee last Congress were bipartisan.
    So I look forward to working with you. First, I would like 
to introduce two new Members to our subcommittee. First is 
Congressman Tim Walberg from Michigan. Tim joined the committee 
last Congress, but this is his first term being on this 
subcommittee.
    So, Tim, we look forward to working with you and, you know, 
there is always great cooperation, not just because Tim and I 
share a border. He says I protect his southern flank, which is 
Ohio. He protects my northern flank in Michigan. So when Ohio 
and Michigan work together, we can all work together. So----
    [Laughter.]
    Mr. Doyle. Except on the football field.
    Mr. Latta. I also would like to introduce to our--new to 
the committee is Greg Gianforte from Montana. He brings 
expertise in computer science, electrical engineering, and 
technology, and so we welcome him to the committee.
    So, Mr. Chairman, thank you very much and I yield back.
    Mr. Doyle. Thank you.
    Before we get started, I do want to mention some sad news 
that we got this week. We know our dear friend and former 
chairman and longtime member of this committee, John Dingell, 
is now on hospice care as he is being treated for cancer. We 
want to hold John and Debbie Dingell, who is a great member of 
this committee, in our thoughts and prayers.
    Having said that, I want to welcome everyone to the 
Subcommittee on Communications and Technology's first hearing 
of the 116th Congress.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    First of all, I want to thank my colleagues on the Energy 
and Commerce Committee for making me chair of this 
subcommittee. I consider it a great honor and a great 
responsibility to hold this gavel, and I look forward to 
working with all my colleagues on the committee.
    I believe we share many of the same goals and values. I 
believe in the power of competition to spark innovation, expand 
access, and give consumers a better experience at a lower 
price.
    Today's hearing is on net neutrality. I believe this is one 
of the most important digital rights issues we face today. The 
internet is certainly one of the most influential inventions 
ever, and today it touches almost all aspects of our economy, 
culture, and politics.
    According to the estimates by the Bureau of Economic 
Analysis, the digital economy accounts for 6.5 percent of the 
total U.S. economy or, roughly, $1.2 trillion a year in GDP.
    Last year, the Pai FCC repealed the 2015 Open Internet 
Order. Let me be clear. This repeal had far greater impact than 
just removing the FCC's net neutrality rules.
    It was a step back by the FCC from its role as an agency 
that regulates and oversees internet access and a fundamental 
shift from all previous FCC Chairs who worked to put in place 
enforceable net neutrality rules and preserve the Commission's 
vital oversight and consumer protection roles.
    Today, the online publication Motherboard is again 
reporting that mobile carriers sold access to millions of 
consumers' real time locations to bounty hunters and who knows 
who else.
    Their investigation found that one entity had requested 
more than 18,000 data location requests. These allegations are 
very troubling and need to be addressed and investigated.
    Last year, firefighters in California had their mobile 
command center's internet connection slowed down to a snail's 
pace because they exceeded their data limit.
    Because of the FCC's repeal of the Open Internet Order and 
specifically repeal of Sections 201 and 202 of the 
Communications Act as well as the general conduct standard, the 
firefighters couldn't call the FCC to restore critical access 
to their systems.
    Instead, they had to call wireless--their wireless company 
and pay a representative over the phone to increase their data 
plan while in the midst of fighting the largest, most complex 
fire in California's history.
    In fact, because of the repeal, these practices were 
permissible under the FTC's jurisdiction because they were 
disclosed in the terms of service.
    Now, if we agree that public safety is a priority, we need 
to make sure that they are a priority, not just another 
subscriber. We not only need rules on the books that protect 
and preserve our Nation's digital economy, we need a cop on the 
beat and the FCC is the agency that was empowered by Congress 
to protect consumers, competition, and innovation--and 
innovators' access to the internet.
    [The prepared statement of Mr. Doyle follows:]

                 Prepared statement of Hon. Mike Doyle

    Welcome to the Subcommittee on Communications and 
Technology's first hearing of the one hundred and sixteenth 
congress.
    First of all, I would like to thank my colleagues on the 
Energy and Commerce for making me the chair of this 
subcommittee,.
    I consider it a great honor and a great responsibility to 
hold this gavel.
    I look forward to working with all of my colleagues on the 
committee.
    I believe we share many of the same goals and values.
    I believe strongly in the power of competition to spark 
innovation, expand access, and give consumers a better 
experience at a lower price.
    Today's hearing is on Net Neutrality. I believe this is one 
of the most important digital rights issues we face today.
    The internet is certainly one of the most influential 
inventions ever, and today it touches almost all aspects of our 
economy, culture, and politics.
    According to estimates by the Bureau of Economic Analysis 
the digital economy accounts for 6.5 percent of the total US 
Economy or roughly $1.2 trillion a year in GDP.
    Last year, the Pai FCC repealed the 2015 Open Internet 
Order.
    Let me be clear, this repeal had far greater impact than 
just removing the FCC's Net Neutrality rules.
    It was a step back, by the FCC, from its role as the agency 
that regulates and oversees internet access--and a fundamental 
shift from all previous FCC Chairs, who worked to put in place 
enforceable Net Neutrality rules and preserve the Commission's 
vital oversight and consumer protection roles.
    Today, the online publication Motherboard is again 
reporting that mobile carriers sold access to millions of 
consumers real time locations to bounty hunters and who knows 
who else.
    Their investigation found that one entity had requested 
more than 18,000 data location requests.
    These allegations are very troubling and need to be 
addressed and investigated.
    Last year, firefighters in California had their mobile 
command center's internet connection slowed down to a snail's 
pace because they had exceeded their data limit.
    Because of the FCC's repeal of the Open Internet Order, and 
specifically the repeal of sections 201 and 202 of the 
Communications Act as well as the general conduct standard, the 
Firefighters couldn't call the FCC to restore critical access 
to their systems.
    Instead, they had to call up their wireless company and pay 
a representative over the phone to increase their data plan, 
while in the midst of fighting the largest, most complex fire 
in California's history!
    In fact, because of the repeal, these practices were 
permissible under the F-T-C's jurisdiction, because they were 
disclosed in the terms of service.
    If we agree that public safety is a priority, we need to 
make sure that they are a priority, and not just another 
subscriber to be nickel and dimed.
    We not only need rules on the books that protect and 
preserve our Nation's digital economy.
    We need a cop on the beat--- and the FCC is the agency that 
was empowered by Congress to protect consumers, competition, 
and innovators access to the internet.
    Thank you all again for being here and I look forward to 
the testimony of our witnesses.

    Mr. Doyle. With that, I would like to yield the remainder 
of my time to my colleague, Congresswoman Anna Eshoo.
    Ms. Eshoo. I thank the chairman and I congratulate you, Mr. 
Doyle, on being the chairman of this great subcommittee and it 
is wonderful for the whole committee to be together today and I 
can't think of a more important subject to be examining.
    I want to reinforce what you just said about what happened 
last summer. This is a fire department that is part of my 
district in Santa Clara County. Those of you that don't know 
the area you know it by the moniker Silicon Valley. These were 
Santa Clara County firefighters and they were battling one of 
the worst forest fires in the history of the State of 
California.
    Now, their data speeds were slashed. Now, just picture what 
is going on. This is an emergency. This is real red lights and 
sirens blaring, people's lives at stake--and they weren't able 
to communicate. The firefighter weren't able to communicate 
with each other to get the directions they needed to do their 
jobs.
    Now, if the 2015 open internet rules--they could have 
prevented this because if they had--there were specific 
exemptions for public safety. Now, I don't take a back seat to 
anyone on public safety issues and telecommunications.
    Congressman Shimkus and I have been on this for more years 
than we want to count. So, you know, what do we want to chalk 
this up to? Misbehavior? Bad PR?
    Listen, this is the United States of America. We have to 
have first rate system that works for everyone and that is why 
the 2015 rules--internet rules are so, so important. So that is 
why this hearing is so important.
    I thank you, Mr. Chairman, and I yield back.
    Mr. Doyle. I thank the gentlewoman.
    The chairman now recognizes Mr. Latta, the ranking member.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you, again, Mr. Chairman, and I am 
very glad to see that we are starting off with this subject 
that has attracted so much attention over the past 15 years.
    Despite the long track record on net neutrality, I believe 
there is plenty of room for consensus here and there is also 
great need for consensus. In my district, as in many others 
across the Nation, our constituents want us to focus on getting 
broadband out to close the digital divide, and the uncertainty 
generated by these years and net neutrality wars is very 
unhelpful to that goal.
    So I am hopeful that this is the year we can finally come 
together on a permanent legislative solution. I would also like 
to welcome our witnesses, especially former FCC Chairman 
Michael Powell.
    As Chairman, he had the distinction of creating a 
bipartisan consensus on this subject in 2004. Before internet 
freedoms he outlined for consumers--freedom to access the 
lawful content of their choice, use applications and devices of 
their choice, and receive meaningful information about their 
service plans still serve as benchmarks for what we are trying 
to accomplish with net neutrality rules.
    Since then, there have been several attempts to create 
consensus in Congress and I think it would be instructive for 
us to go back and consider some of them as potential starting 
points for our conversation this year.
    To that end, yesterday I introduced a bill that closely 
tracks Chairman Waxman's proposed legislation from 2010, the 
attempt to add a compromise on this issue from our Democratic 
colleagues on this committee.
    Like most attempts over the years in Congress and the FCC 
alike, the bill focuses on the potential behaviors of concern, 
namely, blocking, throttling, and discriminatory practices.
    What it does not include is the drastic outlier measure of 
reclassifying broadband into Title II, the part of the statute 
meant to regulate the monopoly of telephone carriers of the 
last century, and to that end, this is Title II.
    [Holds up old phone.]
    It hearkens back to an era where we have a telephone that 
doesn't even have a dial on it. This was used by my ancestors, 
and this is what we don't want to go back to.
    And the phones weren't all that was heavy about Title II. 
Title II carries with it close to 1,000 carrier regulations, a 
nightmare of Government micromanagement both for the providers 
bringing the power of the internet into our pockets on devices 
like these--of course, everyone has on them today--are iPhones 
and for their consumers alike.
    Reversing the consensus on classification made by Chairmen 
Powell, Martin, and Genachowski, the FCC dropped the anvil of 
Title II onto broadband providers in 2015. At the time, the FCC 
did not forebear from applying over 700 of those regulations of 
broadband service, at least temporarily.
    But that just begs the question of why anyone still views 
Title II as a critical component to net neutrality legislation 
instead of complete overkill.
    Chairman Waxman recognized 3 years after the first iPhone 
was introduced that he didn't need Title II to protect Chairman 
Powell's four freedoms and ensure an open internet. We don't 
either.
    In fact, since the reversal of the 2015 Open Internet 
Order, the internet has continued to remain open and free. 
Americans have not been restricted from freely searching, 
posting, or streaming content.
    It is clear that Title II is not needed to protect consumer 
access to the internet.
    I look forward to hearing from all of our witnesses today 
and I look forward to moving forward on a long-awaited 
legislative compromise.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Latta follows:]

               Prepared Statement of Hon. Robert E. Latta

    Good morning and welcome to our first subcommittee hearing 
of 2019. I'm happy to see my colleague Chairman Doyle starting 
off right away with a subject that has attracted so much 
attention for the past 15 years. Despite the long track record 
on net neutrality, I believe there is plenty of room for 
consensus here. And there is also great need for consensus.
    In my district as in many others across the Nation, our 
constituents want us to focus on getting broadband out there to 
close the digital divide. And the uncertainty generated by 
these years of net neutrality wars is very unhelpful to that 
goal. So, I'm hopeful that this is the year we can finally come 
together on a permanent legislative solution.
    I'd like to welcome all our witnesses, especially former 
FCC Chairman Michael Powell. As Chairman he had the distinction 
of creating a bipartisan consensus on this subject in 2004. The 
four Internet freedoms he outlined for consumers--freedom to 
access the lawful content of their choice, use applications and 
devices of their choice, and receive meaningful information 
about their service plans--still serve as the benchmark for 
what we are trying to accomplish with net neutrality rules.
    Since then, there have been several attempts to create 
consensus in Congress, and I think it would be instructive for 
us to go back and consider some of them as potential starting 
points for our conversation this year. To that end, yesterday I 
introduced a bill that closely tracks Chairman Waxman's 
proposed legislation from 2010, the last attempt at compromise 
on this issue from our Democratic colleagues on this committee. 
Like most attempts over the years in Congress and the FCC 
alike, this bill focuses on the potential behaviors of concern, 
namely, blocking, throttling, and discriminatory practices.
    What it does not include is the drastic, outlier measure of 
reclassifying broadband into Title II, the part of statute 
meant to regulate the monopoly telephone carrier of last 
century. Title II is from the era of this antique that was used 
by my family before telephones even had rotary dials. [Show old 
phone.]
    And the phones weren't all that was heavy about Title II. 
Title II carries with it close to 1,000 common carrier 
regulations, a nightmare of government micromanagement, both 
for the providers bringing the power of the Internet into our 
pockets on devices like these [show iPhone] and for their 
customers alike.
    Reversing the consensus on classification made by Chairmen 
Powell, Martin, and Genachowski, the FCC dropped the anvil of 
Title II onto broadband providers in 2015. At the time, the FCC 
did forbear from applying over 700 of those regulations to 
broadband service, at least temporarily. But that just begs the 
question of why anyone still views Title II as a critical 
component to net neutrality legislation, instead of complete 
overkill.
    Chairman Waxman recognized, 3 years after the first iPhone 
was introduced, that he didn't need Title II to protect 
Chairman Powell's four freedoms and ensure an open internet. 
And we don't either.
    In fact, since the reversal of the 2015 Open Internet 
Order, the internet has continued to remain open and free. 
Americans have not been restricted from freely searching, 
posting, or streaming content. It's clear that Title II is not 
needed to protect consumer access to the internet.
    I look forward to hearing from all the witnesses, today, 
and as we move forward on a long-awaited legislative 
compromise.

    Mr. Doyle. Thank you.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Doyle, and I want to 
thank--first of all, I am glad to see that you're our chair, 
but I also want to thank you for all that you have done over 
the years on the subject matter of this subcommittee, but 
particularly on net neutrality because you were the sponsor of 
the CRA Resolution.
    Today's hearing examines a communications service that is 
essential to consumers and businesses alike. The internet is 
indispensable to modern life and a catalyst for American 
innovation and social interaction.
    Until last year, both Republican- and Democratic-led FCCs 
recognized that net neutrality principles were core for 
ensuring the internet remained free and open. Until last year, 
both Republican and Democratic FCCs believed that when 
consumers pay their hard-earned money each month to connect to 
the internet they should get access to the entire internet.
    And until last year, both Republican and Democratic FCCs 
would nod in agreement that your internet service providers 
should not be the one deciding what you see, how you see it, 
and when you see it.
    But then came President Trump and the FCC stepped in--well, 
I should say this. Before Trump, the FCC stepped in to stop net 
neutrality violations that stifled innovative technologies and 
allowed ISPs to pick winners and losers on the internet.
    They knew that consumers would lose if the Government stood 
by and did nothing, and that is because the history of 
broadband is chock full of bad behavior that strong net 
neutrality protections like those in FCC's 2015 order were 
designed to address.
    And I would like to introduce an article for the record 
from the Free Press detailing many of those violations with 
your permission, Mr. Chairman.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. But instead of standing with the American 
people with the FCC's 2015 order, when President Trump came in 
the Trump FCC eliminated commonsense net neutrality protections 
under the guise of promoting broadband investment.
    While ISPs told the FCC what it wanted to hear, its senior 
executives told a different tale to investors. Hindsight tells 
us that the ISPs were more honest to Wall Street than the FCC 
and despite enormous tax benefits from the GOP tax scam and the 
elimination of net neutrality rules, many of the largest ISPs 
invested less in broadband than in previous years.
    And, again, the Trump FCC ignored the millions of Americans 
pleading for strong net neutrality protections. The agency 
falsely claimed a flood of pro-net neutrality comments were a 
denial of service attack and shortly thereafter it accepted an 
onslaught of bogus submissions aimed at skewing the FCC's 
Rulemaking against net neutrality, clearly.
    Now, I just believe that Chairman Pai's mind was made up 
from the beginning and the Trump administration's mind was made 
up from the beginning. I often remember listening to TV one 
night when the--I forget that guy who was President Trump's 
first press secretary--said, ``Oh, don't worry, the FCC is 
going to repeal the net neutrality rule.'' Spicer, OK, it was 
on Saturday night all the time. And Spicer said, ``Don't 
worry''--you know, long before the FCC even took action--``we 
are going to repeal net neutrality.''
    You know, I was always told that the FCC was supposed to be 
an independent Commission and make--and not make up their mind 
and not have the administration decide for them, you know, 
before they even decided what to do. But that, clearly, wasn't 
the case with President Trump.
    In the wake of the repeal, the Republican-led Senate passed 
a congressional review act resolution rejecting the FCC's 
mistake, and 182 Members of the House supported the same. That 
was Mike Doyle's resolution in the House.
    But Speaker Ryan ignored the public and so the American 
people handed control of the House to Democrats in November, 
giving us a second chance. Without a change, there is no 
backstop to make sure big corporations can't use their power 
over the choke points of the internet to undermine and silence 
their small competitors or the political opposition.
    Consumers don't have anywhere to turn when they are wronged 
by these large corporations because the FCC took itself off the 
beat entirely. Consumers are left watching the internet slowly 
change in front of their eyes.
    Research shows many ISPs are throttling streaming video 
service or boosting some Web sites over others. Wireless 
internet providers charge consumers an HD fee just like your 
pay for TV company and this is all happening when ISPs are on 
their best behavior because the court is considering whether to 
overturn Chairman Pai's order and they know Congress is 
watching.
    So I shudder to think what plans are being hatched up for 
when they think no one is watching. Those plans won't be good 
for consumers, competition, or innovation.
    Mr. Chairman, until strong open internet protections are 
enacted, our only hope is the millions of Americans who are fed 
up and will hold Congress accountable for passing strong net 
neutrality laws.
    And I look forward to working in a bipartisan manner to 
return strong safeguards to the internet. And I want to thank 
you, Mr. Chairman, because this has always been something that 
you care so much about and I know that by having this hearing 
today that we are going to move forward to have a free and open 
internet again.
    Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I want to welcome everyone to this first, important hearing 
of this subcommittee this Congress.
    Today's hearing examines a communications service that is 
essential to consumers and businesses alike. The internet is 
indispensable to modern life and a catalyst for American 
innovation and social interaction.
    Until last year, both Republican- and Democratic-led 
Federal Communications Commissions recognized that net 
neutrality principles were core for ensuring the internet 
remained free and open.
    Until last year, both Republican and Democratic FCCs 
believed that when consumers payed their hard-earned money each 
month to connect to the internet, they should get access to the 
entire internet.
    And until last year, both Republican and Democratic FCCs 
would nod in agreement that your internet service provider 
(ISP) should not be the one deciding what you see, how you see 
it, and when you see it.
    The FCC under Republicans and Democrats stepped in to stop 
net neutrality violations that stifled innovative technologies 
and allowed ISPs to pick winners and losers on the internet. 
They knew that consumers would lose if the Government stood by 
and did nothing.
    After all, the history of broadband is chock-full of bad 
behavior that strong net neutrality protections like those in 
the FCC's 2015 order were designed address. I'd like to 
introduce an article for the record from Free Press, detailing 
many of those violations.
    Instead of standing with the American people, however, the 
Trump FCC eliminated commonsense net neutrality protections 
under the guise of promoting broadband investment.
    While ISPs told the FCC what it wanted to hear, its senior 
executives told a different tale to investors. Hindsight tells 
us that the ISPs were more honest to Wall Street than the FCC. 
Despite enormous tax benefits from the GOP Tax Scam, and the 
elimination of net neutrality rules, many of the largest ISPs 
invested less in broadband than in previous years.
    The FCC also ignored the millions of Americans pleading for 
strong net neutrality protections. The agency falsely claimed a 
flood of pro-net neutrality comments was a denial of service 
attack. Shortly thereafter, it accepted an onslaught of bogus 
submissions aimed at skewing the FCC's rulemaking against net 
neutrality. Clearly, Chairman Pai's mind was made up from the 
beginning. But while the FCC turned a blind eye to the American 
people, Congress, the New York Attorney General's Office, and 
the FBI took heed.
    In the wake of the repeal, the Republican-led Senate passed 
a Congressional Review Act resolution, rejecting the FCC's 
mistake. 182 Members of the House supported the same, urging 
then Speaker Ryan to hold a vote on the CRA. Speaker Ryan 
ignored the public, and so the American people handed control 
of the House to Democrats in November, giving us a second 
chance.
    Without a change, there is no backstop to make sure big 
corporations can't use their power over the choke points of the 
internet to undermine and silence their small competitors or 
the political opposition. Consumers don't have anywhere to turn 
when they are wronged by these large corporations because the 
FCC took itself off the beat entirely. Consumers are left 
watching the internet slowly change in front of their eyes.
    Research shows many ISPs are throttling streaming video 
service or boosting some Web sites over others. Wireless 
internet providers charge consumers an H.D. fee just like your 
pay-TV company. And this is all happening when ISPs are on 
their best behavior because the court is considering whether to 
overturn Chairman Pai's order, and they know Congress is 
watching. I shudder to think what plans are being hatched up 
for when they think no one is watching. Those plans won't be 
good for consumers, competition, or innovation.
    Until strong open internet protections are enacted, our 
only hope is the millions of Americans who are fed up and will 
hold Congress accountable for passing strong net neutrality 
laws. I look forward to working in a bipartisan manner to 
return strong safeguards to the internet.

    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Walden, ranking member of the 
full committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you very much, and congratulations 
on taking over the gavel of a really cool subcommittee. I mean, 
I chaired this for 6 years. I can tell you it is--well, you 
can't pick among your children when you are a chairman or the 
top Republican leader on the committee, but this is a pretty 
good subcommittee.
    So I look forward to continuing the work and I want to 
welcome all of our witnesses here. I cannot help myself a bit. 
In terms of Presidential pressure on net neutrality, we should 
not forget the video that President Obama put out in the middle 
of the NPRM that Mr. Wheeler had that I believe caused an 
enormous pivot in November of 2014 after the election, pushing 
forward toward Title II regulation because I know from meetings 
I had prior to that, that was not necessarily the first course 
of action that the FCC was headed towards. So I don't know that 
he ever made Saturday Night Live, but certainly there was 
presidential push to go toward the 2015 Title II.
    Look, the internet has been the single most important 
driver of economic growth, job creation, and better quality of 
life for Americans and people worldwide. It has brought us 
together. It has been amazing in terms of the innovation it has 
brought in every sector of our lives.
    And all of that blossomed under a regime of light touch 
regulation, not Title II--not your grandparents' phone there, 
or whoever's it is. It was light touch, and entrepreneurs and 
innovators in Silicon Valley and everywhere else didn't have to 
come to the Government and get permission to do what they did 
that gave us what we had.
    It was only under the Wheeler regime that we got this heavy 
Government approach and ask-the-Government-first idea under 
Title II.
    I am delighted that my friend Joe Franell could be here 
from Eastern Oregon Telecom. He made the long trip from 
Hermiston, Oregon, and he has a very important voice in this 
debate about Title II and about how we close the digital divide 
in rural America.
    Now, I know my colleagues on the other side of the aisle 
like to throw big rocks at anybody that is big corporation. 
Well, you are talking to the small operator here.
    Now, in eastern Oregon we might consider him to be a big 
operator. But these are the kind of people the ISPs that are 
putting things together to close the digital divide in 
difficult to serve areas.
    And so thanks for being here and I want to welcome the 
other witnesses and especially former Chairman Powell will be 
here as well. You actually created bipartisan consensus on this 
back in 2004 and I think the principles you put forth then 
should guide us today. And so I will look forward to your 
testimony as well.
    And I think we should be able to agree on this committee on 
bipartisan solutions we could put in statute to stop bad 
behavior by ISPs.
    As Mr. Latta outlined, Title II is the outlier in our 
debate. It throws away 20 years of bipartisan consensus that 
built the modern internet and it replaces it with an authority 
that dates back to the early 1900s used to govern monopoly 
telephone companies.
    It may sound innocuous--Title II--but it gives enormous 
power to the Federal Government and unlimited authority to 
micromanage every single aspect of a provider's business 
including rates. There is nothing neutral about that kind of 
authority.
    For 15 years, every attempt at legislative compromise from 
both sides of the aisle has addressed rules on blocking, 
throttling, and discriminatory behavior like paid 
prioritization without Title II authority.
    But efforts to reach agreement have, unfortunately, failed. 
I acknowledge there might have been times when our side should 
have accepted some offers, but the same could be true and said 
for the other side.
    That is why I have introduced the offer I made in 2015, 
which codifies the FCC's protection so they are not subject to 
changing administrations and Commissions. The bill prohibits 
blocking. It prohibits throttling and paid prioritization and 
requires that ISPs be transparent in their network management 
practices and prices.
    This is the offer, by the way, that has been on the table 
that preceded Mr. Wheeler's 2015 proposal. If my colleagues 
don't agree to this--that that is the right starting point--
then my friend Mr. Latta has introduced legislation drawn 
directly from former Chairman Waxman's proposal from 2010 that 
he also filed to the FCC as then-Chairman Genachowski was 
drawing up the 2010 offer.
    Of course, as a former State legislator, I realized that 
some of the best ideas actually come from our States, and in 
this case, my neighbor to the north, Washington State. My 
colleague, Mrs. Rodgers, has a bill that would give you the 
Washington State net neutrality rules from 2018.
    So it is important to point out that Washington State has a 
bicameral legislature in which Democrats control both houses as 
well as the governorship.
    As a permanent legislative solution, we should make that 
our goal to produce in good faith what our colleagues have 
talked about all along. So I am once again asking my friends 
across the aisle to work with us on a bipartisan solution.
    And let me close with this. I want to read from a letter 
that is from 2010 and it says, and I quote, ``Classifying 
broadband internet access as telecommunications services that 
are subject to the provision of Title II of the Communications 
Act may have far-reaching implications. ... To reclassify these 
services is to create uncertainty--something that is sure to 
adversely affect investment decision and job creation, both of 
which are in short supply right now. This is a job for 
Congress.''
    Chairman Pallone, I couldn't agree more with you. This was 
your letter from 2010, and I look forward to reaching across 
the aisle to find a solution here that will give certainty to 
the market and protection to consumers.
    And with that, I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Congratulations, Chairman Doyle, on assuming the gavel of 
this subcommittee. For my new friends on the subcommittee, 
welcome. As a former chair of this subcommittee, I continue to 
deeply care about the issues under its jurisdiction, including 
the topic of today's hearing.
    The fact is, since its creation the internet has been the 
single most important driver of economic growth, job creation, 
and a better quality of life for all Americans. And I'd like to 
point out that the internet is working today, quite well in 
fact, despite hyperbolic warnings to the contrary.
    How we address the future of the internet will impact 
generations of Americans to come and deserves an open and 
honest public debate.
    I am delighted that my good friend Joe Franell from Eastern 
Oregon Telecom could make the long trek from Hermiston, Oregon 
to attend this hearing. For me, this debate is very much about 
the impact on providers like him who are trying to close the 
digital divide. Heavy-handed, one-size-fits-all regulations 
hurt small internet service providers like Eastern Oregon 
Telecom the most, and this in turn hurts their ability to 
expand broadband to underserved communities in rural America.
    I'm also pleased Michael Powell, the former Chairman of the 
FCC, is here as he created a bipartisan consensus back in 2004. 
I also welcome the rest of the panel, and hope you agree the 
Powell freedoms outlined 15 years ago are still the best 
guideposts for consumers.
    Republicans and Democrats actually agree on these key 
parameters of a free and open internet. We can agree on a 
permanent solution to address blocking, as well as throttling, 
and yes even that untested practice known as paid 
prioritization.
    As Mr. Latta outlined, Title II is the outlier here. It 
throws away 20 years of a bipartisan consensus that built the 
modern internet and replaces it with authority from the early 
1900s used to govern a monopoly provider. Title II sounds 
innocuous, but it gives big Government unlimited authority to 
micromanage every single aspect of a provider's business, that 
includes setting rates. There is nothing neutral about this 
kind of authority.
    For 15 years, every attempt at legislative compromise from 
both sides of the aisle has addressed rules on blocking, 
throttling, and discriminatory behavior like paid 
prioritization, without Title II authority, but efforts to 
reach agreement have failed. I acknowledge, there were offers 
our side should have accepted, but in the same manner, I have 
been disappointed in the lack of engagement by your side on 
potential compromise time and time again.
    That's why I have introduced the offer I made in 2015, 
which codifies the FCC's protections, so they aren't subject to 
changing administrations. The bill prohibits blocking, 
throttling, and paid prioritization, and requires that ISPs be 
transparent in their network management practices and prices.
    If my colleagues don't agree this is the right starting 
point, my friend Mr. Latta has introduced legislation drawn 
directly from Chairman Waxman's proposal from 2010 that he also 
filed with the FCC as then-Chairman Genachowski was drawing up 
the 2010 order.
    Of course, as a former State legislator, I realize some of 
the best ideas come from States, in this case my neighbor to 
the north, Washington State. My colleague Ms. Rodgers has a 
bill that will give you the Washington State net neutrality 
rules from 2018. It is important to point out that Washington 
State has a bicameral legislature in which Democrats control 
both houses, as well as a Democrat Governor who also happens to 
be a former member of this committee.
    A permanent, legislative solution produced in good faith 
with our Democratic colleagues is the only way to protect 
consumers, innovation, and an open internet. I am once again 
asking my friends across the aisle, to work with us on a 
bipartisan solution.
    In closing, I'd like to share a quote:
    ``Classifying broadband internet access as 
telecommunications services that are subject to the provision 
of Title II of the Communications Act may have far reaching 
implications. ... To reclassify these services is to create 
uncertainty--something that is sure to adversely affect 
investment decision and job creation, both of which are in 
short supply right now.'' The letter would go on to say, ``This 
is a job for Congress.''
    This was from a 2010 letter written by my friend and 
colleague from New Jersey, the new chairman of the committee.
    I agree with Chairman Pallone, it's past time for Congress 
to act to pass into law bipartisan, permanent net neutrality 
rules. We can do this while making sure the internet continues 
to flourish under a light touch regulatory regime that will 
help us expand broadband access and bridge the digital divide.

    Mr. Doyle. The gentleman yields back.
    I will remind my friend that the past efforts of both 
Republican and Democratic FCC Chairmen to do it in a way that 
you describe was struck down by the courts, and the only rule 
was the Tom Wheeler rule that was also taken to court, was 
upheld by the courts.
    Mr. Walden. If the gentleman would yield, since he 
referenced----
    Mr. Doyle. No. No. We are going to get started now. Thank 
you.
    The Chair wants to remind all Members that, pursuant to 
committee rules, all Members' written opening statements will 
be made part of the record.
    I would now like to introduce our witnesses for today's 
hearing and welcome them all to this committee.
    First, we have Ms. Denelle Dixon, who is chief operating 
officer of Mozilla. Next, we have Ms. Ruth Livier, an actress, 
writer, and UCLA doctoral student; Mr. Joseph Franell, a 
general manager and CEO of Eastern Oregon Telecom; Ms. Jessica 
Gonzalez, vice president of strategy and senior counsel at Free 
Press and Free Press Action Fund; former FCC Commissioner 
Michael Powell, who is now president and CEO of NCTA. Welcome 
back, Commissioner.
    And last, but certainly not least, Tom Wheeler, former 
Commissioner who--Tom, I know you were before this committee 
more than any other FCC Commissioner and you thought you would 
never have to come back here, but here you are, and thank you. 
Tom is a fellow with the Brookings Institute.
    We want to thank all our witnesses for joining us today. We 
look forward to your testimony.
    At this time, the Chair will now recognize each witness for 
5 minutes to provide their opening statement. Before we begin, 
in front of our--I want to just talk a little bit about the 
lighting systems, for those of you that are new to testifying 
here.
    In front of you, you will see a series of lights. The light 
will initially be green at the start of your opening statement. 
It is going to turn yellow when you have 1 minute remaining. So 
please be prepared to wrap up your testimony at that point, and 
when the light turns red, your time has expired.
    So with that, Ms. Dixon, you are now recognized for 5 
minutes.

 STATEMENTS OF DENELLE DIXON, CHIEF OPERATING OFFICER, MOZILLA 
CORP.; RUTH LIVIER, ACTRESS, WRITER, AND UCLA DOCTORAL STUDENT; 
    JOSEPH FRANELL, CHIEF EXECUTIVE OFFICER, EASTERN OREGON 
 TELECOM; JESSICA J. GONZALEZ, VICE PRESIDENT OF STRATEGY AND 
SENIOR COUNSEL, FREE PRESS AND FREE PRESS ACTION FUND; MICHAEL 
  K. POWELL, PRESIDENT AND CHIEF EXECUTIVE OFFICER, NCTA-THE 
   INTERNET & TELEVISION ASSOCIATION; TOM WHEELER, VISITING 
FELLOW, BROOKINGS INSTITUTION, SENIOR RESEARCH FELLOW, HARVARD 
                         KENNEDY SCHOOL

                   STATEMENT OF DENELLE DIXON

    Ms. Dixon. Chairman Doyle, Ranking Member Latta, and 
members of the subcommittee, thanks to net neutrality, with the 
touch of a button an owner of a small business in Pittsburgh, 
Pennsylvania, or in Perrysburg, Ohio, can get on the open web 
and instantly reach billions of customers around the world.
    She doesn't need to negotiate with multiple ISPs to make 
sure none of those customers are blocked from shopping on her 
site. She doesn't need to hire an army of lawyers to make sure 
that she isn't put in Comcast's or Verizon's slow lane. She 
only needs to make sure that she is creating the best product 
for her customers.
    That is the genius of net neutrality--an open internet 
without ISP gatekeepers where the best ideas and businesses can 
be seen instantly, and that is what we are here to talk about 
today.
    My name is Denelle Dixon. I am the chief operating officer 
of the Mozilla Corporation. We are the makers of the open 
source Firefox browser and other web-based products and 
services.
    As defenders of the open internet, Mozilla has a long 
history of support for net neutrality and we remain as 
committed as ever to the strong net neutrality protection and 
clear FCC authority.
    Given the importance of this issue to internet users all 
around the world, I want to thank you for the opportunity to 
testify. I would like to make three points today.
    First, net neutrality is essential for businesses online 
and particularly small businesses. We need an internet where 
small businesses can flourish by delivering what users want, 
finding the gaps in opportunities in the market that aren't 
being served, and delivering those.
    I am certain that Mozilla would not be here today without 
net neutrality, and if you look around the tech industry, this 
same origin story is repeated over and over.
    Losing net neutrality does not--does more than just lock in 
the positions of dominant players. It also stifles the market 
of ideas, puts innovation behind a barrier of permission and 
negotiation, and places roadblocks in front of diverse 
viewpoints and approaches.
    Second, while the FCC has worked to repeal protections over 
the last 2 years, the case for net neutrality has grown even 
stronger. The FCC claimed that repealing net neutrality 
wouldn't pose any problems and would instead unlock investment 
and competition in the telecom industry.
    But here is what we have actually seen over the last 2 
years. We have seen Verizon slow connections of California 
firefighters as they battled the blaze and research from 
Northeastern University and the University of Massachusetts 
reports providers are slowing internet traffic to and from 
popular video streaming services like YouTube and Netflix.
    Did the repeal unlock massive ISP investment as promised? 
No. The data says that major ISP infrastructure investment has 
in fact declined. This shouldn't be surprising because, 
remember, after the 2015 rules were adapted major ISP 
executives in quarterly earnings calls told their shareholders 
that the FCC's actions would not impact their investments.
    Similarly, many opponents of net neutrality claim that 
competition among internet service providers would be enough to 
protect users and small businesses. But competition among ISPs 
remains an illusion today. Roughly, half of this country has at 
most one option for high-speed access.
    And third, we must restore strong net neutrality 
protections and clear FCC authority today. There is no time to 
waste. We need to protect net neutrality and the clearest path 
forward today is to restore the protections of the 2015 order 
through litigation.
    That is why Mozilla led the effort to file suit against the 
FCC in the DC Circuit Court and we were joined by a broad 
coalition of public interest organizations, public sector 
agencies, and technology companies.
    We understand the value of legislative solutions to provide 
lasting protections. But any effort must offer at the very 
least the protections that are as strong as the 2015 order with 
adequate and flexible authority for the FCC to enforce it. 
Anything less does a disservice to consumers.
    In conclusion, as a business leader I would note how 
unfortunate it is to see this issue take on such a partisan 
view in DC Polling shows that the broad majority of Americans, 
both Republicans and Democrats, support net neutrality.
    Promoting a level playing field of competition and 
innovation is not a Democratic or a Republican value. It is an 
American value.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Dixon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Ms. Dixon.
    We now recognize Ms. Livier. You are recognized for 5 
minutes.

                    STATEMENT OF RUTH LIVIER

    Ms. Livier. In 2014, I testified before the Senate 
Judiciary Committee on how net neutrality changed my life as a 
Hollywood entertainment professional. I shared that the open 
internet put worldwide distribution of media content at the 
fingertips of independent artists like me.
    This gave us the unprecedented opportunity to tell our 
stories from our points of view and share them globally without 
the financial and corporate gatekeeping roadblocks of 
traditional media. It empowered us to define ourselves.
    This matters, because the media produced by Hollywood 
historically tell an incomplete and unbalanced narrative about 
U.S. society. Latinx communities are largely misrepresented, 
symbolically annihilated and/or positioned as peripheral 
characters in someone else's story.
    With net neutrality rules in place to ensure that internet 
access service would remain open, with low barriers to entry, 
artists could actively participate in balancing Hollywood's 
irresponsible exclusions.
    Net neutrality is the reason I went from approaching a 
traditional media executive for advice on a script I has 
written and being told by them, ``Who are you for anyone to 
produce your show?'' 2 years later, becoming the first person 
to join the Writers Guild of America West via my work in 
digital media for a web series that I produced based on that 
very same script.
    The difference between these two scenarios is--was that 
camera equipment was no longer cost prohibitive and the 
exciting new frontier of the open internet allowed the rest of 
us, regardless of ethnicity or socioeconomic standing, to 
finally tell our stories without getting discouraged, derailed, 
or turned away.
    Net neutrality is about ensuring that traditional media's 
exclusionary practices are not transferred and amplified by 
broadband providers. It is about who has the power to control 
narratives and does shape perceptions and perspectives.
    This has significant impacts on society. From marginalized 
communities, our presentation or lack thereof is--can be a 
matter of life or death. When we are dehumanized in the media 
it makes it easier for immoral individuals and groups to 
justify their targeted aggressions against us.
    A neutral internet empowers us to virtually walk arm and 
arm with the confidence of knowing that our voices matter and 
we are not alone, that we are not invisible, and that our 
experiences are not isolated.
    In the summer of 2018, for example, a group of Latinx 
entertainment media colleagues and I formed a group to rally 
against the cruelty of family separations. Because of net 
neutrality, we were able to learn about the crisis from a 
variety of online sources.
    Brave journalists, activists, and whistleblowers exposed 
the injustices that were and continue to be perpetrated on 
brown men, women, and children at our southern border and 
beyond.
    The open internet allowed us to organize and to join forces 
to push back against this administration's inhumanity. As a 
Latina who has grown up in a low-income family where English is 
our second language I have firsthand experiences of how much 
you have to juggle just to stay afloat and how mentally, 
physically, and emotionally exhausting it can be to navigate 
daily and persistent forms of oppression.
    The system is so relentlessly stacked against you that it 
just seems easier to give up, tune out, and put your head down 
and believe the myth that there is nothing that we can do--that 
that is just the way things are.
    But social inequities are social constructs. They have been 
structured to serve particular purposes, helping some and 
harming many other human beings in very real and very personal 
ways.
    Net neutrality is a ray of light that can put us on the 
path to bridging some of these inequities by affording us the 
option to make ourselves visible and to make our voices heard 
in the digital spaces.
    This policy is also about protecting our ability to have 
access to job opportunities, since more and more jobs are being 
partially or fully migrated onto the digital space. This is 
true for me as an actress.
    Some of my jobs now take place in the digital arena. As a 
UCLA doctoral student, this is within the area of my research. 
Taking a cue from my academic advisor, Dr. Sarah T. Roberts, 
and her great groundbreaking work in digital labor, my research 
sheds light on the relationship between the exclusionary 
structures of traditional media and the exploitation of human 
beings who are doing creative work in digital environments.
    My ability to do this research would be significantly 
hindered without net neutrality, without access to diverse 
viewpoints and within such a mediated and corporate-facing 
environment.
    A few powerful internet service providers should not be 
entitled to mediate our voices, to frame discourses in order to 
serve their interest nor to decide who or what is worthy of 
being visible--and/or invisible in our society or under what 
conditions.
    Net neutrality impacts human beings in very real ways every 
single day. It impacts our ability to participate in society, 
to make a living, to connect with our loved ones, to earn an 
education, and to collaborate in pushing back against social 
inequities.
    Market discourse has served the market and are designed to 
keep conversations within certain parameters. I am here to 
participate in highlighting the human impacts of net neutrality 
because things look different from a human perspective.
    Thank you.
    [The prepared statement of Ms. Livier follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you very much.
    We now recognize Mr. Franell. You are recognized for 5 
minutes.

                  STATEMENT OF JOSEPH FRANELL

    Mr. Franell. Good morning, Chairmen Pallone and Doyle, Vice 
Chair Matsui, and Republican leaders Walden and Latta, and 
members of the subcommittee. Thank you for the opportunity to 
appear before you today.
    It is an honor to be here and talk about net neutrality and 
the consequences of applying Title II to the internet. The 
application of Title II as part of net neutrality had a 
dramatic chilling effect on rural telecom and the Pacific 
Northwest, and I suspect the same could be said of the rest of 
the country.
    The uncertainty of the regulatory environments, even on 
nonregulated telcos and internet service providers like Eastern 
Oregon Telecom made investors hesitant to invest in the 
telecommunications sector.
    Further, the ill-informed public fervor and fear 
surrounding the net neutrality subject precluded any objective 
discussion of the topic. This resulted in distrust of and anger 
towards ISPs like my company that had never manipulated their 
networks or internet protocol traffic in any anticompetitive 
nature.
    It also prompted State legislation forcing net neutrality 
practices on local providers who, again, had never violated the 
public trust and had no interest in anticompetitive behavior.
    All of this took place without the ability to have an 
objective discussion about the scope of the problem and how to 
address it without harming the internet all because of the 
fearmongering by those who didn't fully understand the subject 
or had other reasons for advancing Title II application to the 
internet.
    Yes, I believe Title II had begun to harm the internet in 
the U.S. and a reapplications of it has a very real possibility 
of resulting in unforeseen and irrevocable damage in the 
future.
    I applaud your interest in having an objective conversation 
about the subject in this hearing today. Since the repeal of 
net neutrality, investors have been much more willing and 
perhaps eager to invest in rural telecommunications.
    Additionally, my company has been able to focus on 
continuing to provide exceptional telecommunications and is 
currently expanding into other markets that are underserved.
    We do this with confidence because we don't have to concern 
ourselves with unnecessary regulatory interference and the 
draining cost of reporting and compliance.
    I believe that Title II does not have to be nor should it 
be part of the solution to the problem of bad behavior by a few 
internet service providers. Such application of Title II would 
not just be damaging but also unnecessary. When I say 
unnecessary, I say so because my company does not participate 
in the bad behavior that started the net neutrality debate in 
the first place.
    In fact, I don't know of any rural provider in Oregon who 
does. Nevertheless, I do believe that further discussion on the 
topic of prioritization of traffic is warranted.
    As a society, we apply different values to everything, 
sometimes rightly and sometimes not. In fact, I think we would 
all agree that as most forms of information--voice, data, 
video, et cetera--are now being moved via internet protocol, 
some are, clearly, more important than others.
    Here are some of my own examples. A long distance call to 
911 should take priority over a regular call. If my daughter 
was in a car wreck and had a head injury late one night I would 
want the digital imaging that needed to be analyzed remotely by 
a radiologist or surgeon to take priority over someone else's 
online gaming tournament.
    Students participating in distance education or online 
standardized testing should get priority over those streaming 
online movies for entertainment.
    Prioritization of traffic becomes a problem only when it is 
done to harm or eliminate the competition and there are 
consumer protection laws in place that target this type of 
behavior. Adding additional layers of regulatory burden is not 
the answer.
    Instead of adding to that burden, I encourage you to 
consider leaving the longstanding Title 1 regulation of the 
internet in place, abandon any initiative to reinstate Title II 
through legislation, and address the anticompetitive abuses 
that everyone fears with light touch surgical precision.
    Finally, I would be remiss if I did not advocate for 
initiatives from this committee specifically designed to 
promote competition in the marketplace. Giving consumers 
choices for their internet service offers the greatest 
mechanism for rewarding the good performer and punishing the 
bad performer. If enough customers choose to leave, the bad 
performer will either adjust their behavior or go out of 
business.
    Only robust competition in the marketplace ensures 
innovation, lowers prices, and ensures excellent customer 
service. A complacent monopoly has no incentive to change. 
Robust competition is the answer.
    I would be happy to answer any questions you may have. 
Thank you.
    [The prepared statement of Mr. Franell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you very much.
    Ms. Gonzalez, you now have 5 minutes.

                STATEMENT OF JESSICA J. GONZALEZ

    Ms. Gonzalez. Thank you, Chairman Doyle and full committee 
Ranking Member Walden. Calling him out on the way out--excuse 
me. Members of the subcommittee, thanks very much for having 
me.
    I am here today on behalf of Free Press' 1.4 million 
members who are calling for reinstatement of the FCC's 2015 net 
neutrality rules and the return of the FCC's legal authority to 
protect us from ISP discrimination and abuse.
    I am also here as a Mexican-American woman from a working 
class family. My father grew up in a Los Angeles suburb where 
Mexicans were not allowed to live. I understand that millions 
of people who came before me, including Members of this House 
past and present, have fought against discrimination and for 
other causes that enabled me to be here today.
    I say this to underscore that what we are doing here really 
has impacts on real people's lives. The U.S. Government has a 
long history of discrimination and racism--indeed, used the 
media system to legitimize the enslavement of black people and 
the genocide and displacement of Native peoples.
    And although it has taken some steps to reduce racism and 
discrimination in certain aspects of American life, like 
housing, it has done little to remedy structural racism in the 
communications sector.
    The FCC's 2015 net neutrality order is one exception. That 
order gave the FCC clear authority to prevent and investigate 
shady ISP business practices like, but not limited to, 
blocking, throttling, and discriminating against lawful 
content.
    The Trump FCC's 2017 decision to repeal that order was 
wildly unpopular. Polls show that 82 percent of Republicans, 90 
percent of Democrats, and 85 percent of independents object, 
and people of color have been some of the most vocal critics, 
in part because we have more at stake.
    Never before in history have barriers to entry been lower 
for us to reach a large audience with our own stories in our 
own words, to start small businesses, to organize for change.
    This hits close to home for me because my best friend, 
Vanessa, is a blogger and small business owner. While she was 
pregnant and in the midst of the Great Recession, she was laid 
off from her job, and she began blogging from her apartment in 
2010 after her daughter's birth.
    It was a labor of love. Her intention was to fill the void 
of content designed for and by parents of multiracial children. 
She began writing love letters to her daughter to ensure that 
the beauty and power of black and brown women were front and 
center, even in a world that subjugates us at every turn.
    Vanessa's blog, desumama.com, underscores that mothers are 
the storytellers, dream keepers, and legacy builders for the 
next generation. Today, De Su Mama has a loyal following and is 
building understanding across cultures.
    It is also a successful business that has helped Vanessa 
supplement the family income and supported her journey to home 
ownership.
    The end of net neutrality means that her voice might be 
drowned out by corporate media that can pay more to access her 
audience--some of the same corporate media that have failed 
spectacularly to represent us.
    This could impair her family's livelihood and the reach of 
her cultural influence. And Vanessa cares so deeply about this 
issue that she actually flew here from Long Beach, California--
she is sitting behind me today--on her own dime to bear witness 
to this hearing.
    I am not going to look back there. I will get emotional. 
But she really believes that this is critical to her business 
model and to her ability to spread the word.
    So I will get on to the lawyer points. In my testimony, I 
go into great detail about how ISPs have abused their power 
when net neutrality is not in place. I will give just a few 
examples here.
    We have seen Comcast secretly block and slow file-sharing 
apps. We have seen Metro-PCS announce plans to block streaming 
from all providers except for YouTube. AT&T said it would 
disable the use of FaceTime over cell connections unless their 
customers paid for higher cost options. AT&T, Time Warner 
Cable, and Verizon deliberately limited capacity ISP 
interconnection points, throttling Netflix, and those are just 
a few examples.
    And since the 2017 repeal we have seen some seriously 
suspect ISP behavior that my colleague, Denelle, already 
touched on. But because the FCC has sworn off its authority to 
protect broadband consumers it doesn't even have the power to 
investigate and look into this.
    And the real shame of this whole thing is that net 
neutrality was working. Chairman Pai's justification for the 
repeal was built on a mountain of lies. Pai promised us that 
ISP investment and deployment declined under net neutrality and 
would expand following its repeal.
    But the numbers are in and that is just not true. I hope 
this new Congress seizes the opportunity to right the wrongs of 
the Pai FCC and restore fundamental protections to Americans.
    Thank you.
    [The prepared statement of Ms. Gonzalez follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you.
    Commissioner Powell, you have 5 minutes.

                 STATEMENT OF MICHAEL K. POWELL

    Mr. Powell. Mr. Chairman, members of the committee, it is 
always an honor and a privilege to be with you. I also send my 
prayers to the Dingells. John Dingell is a dear friend and was 
a lion of the legislature, and our thoughts are with him.
    To be clear, the virtues of an open internet are simply 
unassailable. It has proven to be one of the most democratizing 
forces we have ever known, putting the power to innovate in the 
hands of billions.
    The ISP industry is proud of its role in building that 
network and engineering it to be an open platform has been good 
for society and it has been good for the bottom line.
    That is why we unequivocally support legislative efforts to 
codify open internet rules in a manner that preserves the 
incentives for investment and dynamic growth.
    But to craft rules that maximize public welfare, we must 
appreciate the symbiotic nature of the internet ecosystem. Just 
as great software depends on great hardware, the internet 
depends on an ever-improving network to facilitate cycles of 
ever-improving applications.
    We all recognize that users need an open internet to 
thrive. But we cannot ignore the fact that they also need the 
network to continuously innovate and improve.
    A startup needs confidence that the network will reach 
their customers. Rural communities need networks to reach them 
in remote regions. Consumers require high-quality, secure, and 
reliable networks, and advanced applications will require even 
more powerful infrastructure.
    Put simply, the internet is not fully baked. It must 
continually innovate and improve, and policy must protect the 
conditions that make that possible.
    But Title II throws a wrench in the flywheel of innovation. 
Dumping a mountain of regulations designed for a different time 
for a different network with different economic conditions and 
different consumer needs throws off the balance.
    Title II is a massive body of economic regulations. It lets 
the Government set prices, decide the terms and conditions of 
services, and approve new products and services.
    Let us be transparent with the American public. A debate 
about Title II is not a debate about net neutrality. It is a 
debate about whether to regulate the internet as a public 
utility with implications that far beyond simply protecting the 
internet.
    The old and haggard Title II should not be tucked in under 
the shimmering cloak of restoring net neutrality protections. 
The future of the internet deserves more careful consideration.
    Moreover, a bill that includes Title II will rupture any 
hope of bipartisan legislation in a divided government, 
ensuring that the count--for countless more years we will go by 
without the resolution the public deserves.
    There is unique common ground on which to build enduring 
net neutrality rules and we should seize the opportunity rather 
than squander it.
    As you consider legislation, I would encourage you to heed 
the caution but first do no harm. By almost every measure, the 
internet ecosystem has thrived for decades. The internet is the 
fastest deploying technology in the history of the world.
    It gets better at a relentless and unprecedented pace. It 
has been built with trillions of dollars of private capital, 
freeing public resources for other pressing societal needs.
    Innovation has advanced at a dizzying pace, giving birth to 
startups that have grown to become global giants. And against 
this positive backdrop there simply is no evidence of 
systematic patterns of ISPs undermining the openness of their 
networks.
    One must rigorously ask with an open mind how will Title II 
utility regulation improve on these enviable results and is it 
worth risking messing things up by adopting it.
    We have compelling evidence that utility regulations will 
mess things up. There is a voluminous literature documenting 
the negative effects of utility regulation on dynamic 
industries. To ignore it is to ignore the hard-won lessons of 
history.
    But we don't need to spend hours in the library reading 
economic articles. We have real-world examples right in front 
of us. In Europe, regulators did adopt utility style 
regulations and as a result they have achieved substantially 
slower speeds and attracted dramatically less investment than 
in the United States.
    And on our own shores we can see that our utility-based 
infrastructures in this Nation are crumbling. The electric 
grid, our roads, our airports, and our drinking water have all 
earned failing grades due to chronic underinvestment under this 
regulatory approach.
    Is that truly the model we hope to emulate for the 
internet?
    In summary, in software programming an infinite loop is 
defined as a piece of coding that lacks a functional exit so 
that it repeats indefinitely. Net neutrality has been stuck in 
that infinite loop for way too long.
    It is time for Congress to debug this debate once and for 
all and reach a bipartisan solution that protects the open 
internet without damaging internet growth.
    Thank you, and we stand ready to help you do that.
    [The prepared statement of Mr. Powell follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you.
    Commissioner Wheeler, you are recognized for 5 minutes.

                    STATEMENT OF TOM WHEELER

    Mr. Wheeler. Thank you, Mr. Chairman, and I want to begin 
by associating myself with my friend, Michael, and his wishes 
for the Dingell family. In all the world, there was only one 
Big John and he is Mr. Chairman.
    One of the things that allows me to reflect on that is that 
it seems like I have been before this committee so many times 
over the last 40 years, first when I had Michael's role as the 
CEO of NCTA, then when I had a similar role in the wireless 
industry and then when I had the great privilege of being the 
Chairman of the Federal Communications Commission.
    But today, I appear before you as an American citizen who 
has 40 years of experience dealing and living at the 
intersection of new technology and public policy.
    The lesson of that is that net neutrality is not a new 
concept. Essential networks have always historically been 
required to be open. It started back in feudal times when 
English common law required that the ferryman had to provide 
nondiscriminatory access to haul people across the river.
    When the telegraph came along, the first telecommunications 
service, in 1860 Congress said it must be nondiscriminatory. 
Net neutrality was passed in 1860.
    When the railroads became the dominant network, Congress 
again stepped up and said open, just, and reasonable, the rules 
that have to govern that network and, of course, in the 
Communications Act of 1934 openness and just and reasonableness 
was applied to the telephone network.
    Now, let us be real clear. It was those policies that 
created the internet. It was the ability of anyone to access an 
open network that gave us ARPANET and AOL and everything else.
    The 2015 Open Internet Order extended those enduring 
principles to internet service providers while removing 
outdated and unnecessary Title II common carrier requirements.
    I understand why the ISPs don't like this. They want to be 
able to make their own rules. They argue that transmitting 
zeroes and ones rather than analog somehow absolves them of the 
responsibility to be open and just and reasonable.
    That is kind of like saying that electric cars don't have 
to obey the speed limit because it was established for gas 
vehicles. No, there are enduring principles that apply to 
essential networks. Let me quickly address three policy issues 
that flow from that.
    One, the game is being played that we are dealing with an 
information service as opposed to a telecommunications service. 
It is clear what that effort is: to shoehorn the ISPs into a 
less regulatory structure. It is a phony construction.
    Regulating networks like the content they carry is just 
like saying that because a road leads to Macy's that the road 
ought to be regulated the same way Macy's is. Justice Scalia 
said it a lot better when he said there is a difference between 
delivering a pizza and making a pizza.
    There has been a lot of talk about the second point I would 
make about how the Trump FCC presented false evidence that open 
internet regulation would hurt investment.
    But thirdly, focusing on blocking, throttling, and 
prioritization ignores the future and doesn't even protect 
today. It doesn't protect today because it says you are free to 
discriminate--just don't do it this way.
    And worse than that, Michael was right--the cake is not 
fully baked. But those three principles apply Netflix concepts 
to a dynamic and constantly evolving internet.
    Today, the internet is about transporting things. Web 3.0, 
which is now upon us, is about a network that orchestrates, not 
transports. Today, 4G is about full signal transition. 5G is 
about network slicing into pieces.
    There must be a general expectation that no matter how 
technology develops, the essential networks must be open, just, 
and reasonable.
    Thank you.
    [The prepared statement of Mr. Wheeler follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you very much, and let me say both to Mr. 
Powell and Mr. Wheeler, I should have referred to both of you 
as Chairman, not Commissioner.
    Mr. Powell. There are enough chairmen in this room.
    [Laughter.]
    Mr. Doyle. My apologies.
    With the conclusion of witness testimony, we are now going 
to move to Member questions. Each Member will have 5 minutes to 
ask questions of our witnesses. I will start by recognizing 
myself for 5 minutes.
    Chairman Wheeler----
    Mr. Wheeler. Sir.
    Mr. Doyle [continuing]. When the FCC enacted the Open 
Internet Order it included the bright line rules we all talked 
about--no blocking, no throttling----
    Mr. Wheeler. Right.
    Mr. Doyle [continuing]. Paid prioritization. But it also 
included a general conduct standard, consumer protections, and 
Commission oversight of interconnection and zero rating 
policies.
    Can you briefly, and I would underline briefly, give us 
some examples of past problems that necessitated the addition 
of these additional provisions in the order.
    Mr. Wheeler. Well, you have heard many of them being 
discussed in the--in the previous testimony. There is a 
historical reality when Comcast tried to block P2P. There is 
the experience of Comcast trying to block--not trying but, 
indeed, blocking ports into their network.
    There is when AT&T and Verizon said they would not allow 
Google Wallet on their networks. It is when Verizon said they 
would not allow tethering apps on their wallet, so forcing you 
to pay $20 for their tethering service.
    And it continues, as we have heard multiple times. You, Mr. 
Chairman, referenced the Mendocino fire, and what is 
significant about the Mendocino fire is not just the impact 
that it had on the firefighters, which is significant, but the 
impact it had on the people who were suffering as a result and 
who suddenly found that they were being throttled and had no 
place to go because the FCC had washed their hands.
    The study from Northeastern University on throttling, how 
Sprint degraded Skype, the whole--and then the whole issue of 
the so-called zero rating. There is just a study that just came 
out that proves that free is not free.
    The interesting thing is that what the study found was that 
data rates where zero rating free services are allowed are 
actually higher than where they are not allowed, which makes 
sense, of course, because somebody has to subsidize what some 
folks are getting for free.
    I mean, there's a--this is an ongoing how creative can you 
be to figure out ways around it.
    Mr. Doyle. Thank you very much.
    Ms. Dixon, your company, Mozilla, has been the lead 
plaintiff in suing the FCC and hoping to overturn the Pai FCC's 
repeal of the Open Internet Order.
    Can you also briefly tell us why you think these 
protections are critical for small businesses and innovation, 
and do you think that the bright line rules of the open 
internet alone are sufficient by themselves?
    Ms. Dixon. Thank you. The bright line rules are just three 
things we can rattle off very quickly and then ignore the fact 
that those bright line rules can be--you can get around those 
rules. There are loopholes everywhere.
    So they are not sufficient. Governance is incredibly 
important in this area and you cannot rely on the FTC consumer 
protection because it takes years for those things to correct 
harms that occurred years before.
    So you have to look at how we can stop the harm from 
occurring so that Americans don't have to suffer during that 
time, and then we lose years of innovation and opportunity 
because net neutrality rules wouldn't have been in place during 
that time period.
    So we can't actually make up for it by relying on the 
consumer protection statutes. So there is a lot in there that 
needs to be looked at with respect to it.
    I believe very firmly that Mozilla actually wouldn't exist 
today if net neutrality hadn't been in place and I want to talk 
about that from the small business angle.
    We started 17 years ago or so. We did it because Microsoft 
had 95, 99 percent of the market share with respect to browsers 
and we wanted to give users and opportunity for choice.
    And if Microsoft, for example, had been able to negotiate 
with ISPs during that time to say, let's just throttle or make 
it harder to get access to our download page we wouldn't be 
here.
    The open internet rules, while they might not have existed 
in the order as of 2015, they were status quo. That was how we 
operated. That is what the internet was built on.
    The openness, the transparency, the standardization, the 
requirement that we all work together--that is how we got to 
all of this record revenue that folks have today. So small 
businesses need an opportunity to participate in that.
    Thank you.
    Mr. Doyle. Thank you very much.
    Tom, I just want to get back to you just for one quick sec. 
You know, a lot is talked about Title II, and my friends like 
these props of bringing the old phones up from the 1800s.
    But Title II had many, many sections to it and there was a 
lot of forbearance in your open internet order. Many of the 
things that are--concerns that -- rate regulation and others, 
they were forebeared, weren't they?
    Mr. Wheeler. So I believe that Title II has, like, 45 
sections and we forbore, if that's the word, from 27 of them, 
and Mr. Latta, I am just--I got to pull this out because--to 
say that this is also a Title II phone.
    Mr. Doyle. Thank you. I see my--I don't want to abuse my 
time too much because I am hoping other Members don't either. 
So with that, I yield to Mr. Latta for 5 minutes.
    Mr. Latta. I appreciate the chairman for yielding and, 
Chairman Powell, we discussed the four freedoms for internet 
consumers that you outlined back in 2004. Your accomplishment 
in creating a bipartisan consensus at the Commission looks even 
more impressive, given what has happened in later Commissions.
    Will you elaborate on the meaning of the first freedom, the 
freedom to access the lawful content of a consumer's choice? It 
seems to me that we have all agreed since then that nobody 
wants ISPs blocking content they don't like.
    In your opinion, is there a serious threat to free speech 
on the internet today and, if so, where is it coming from?
    Mr. Powell. I think that rule was a predecessor to what has 
ultimately morphed into the no blocking, no throttling, paid 
prioritization concepts. It is important to remember 
historically at the time that we were announcing this the 
internet was just burgeoning as a commercial service and it was 
really important to try to create a set of customer and 
corporate expectations about how the engineering aspects of the 
internet should evolve.
    We did that and I think that proved successful. In fact, 
recently Reed Hastings of Netflix said quite squarely in his 
own earnings call that he believed that consumer expectation of 
net neutrality was so strong even a repeal of rules wouldn't 
threaten them as a company and noted that many countries don't 
have net neutrality rules which they operate under open 
environments quite successfully because of that expectation.
    Our rules were intended to generate that expectation at a 
time when things were new, and I would highlight so many of the 
examples we hear about today, about the flourishing invention 
of Mozilla or other products and services all took place during 
a period in which there were no net neutrality rules, in which 
the fact exists that if you believe ISPs had the incentive and 
ability and desire to block content, throttle it, and impose 
paid prioritization they were free to do so for over 20 years 
with the creation of every product from Google to Uber, and 
nonetheless those products thrived and survived.
    I think it is a misnomer that ISPs do not have a corporate 
self-interest in an open internet. To be blunt, they made a 
whole lot of money on an open internet because when you build a 
network with some costs you are rewarded by filling that 
network with as much content as possible and creating 
artificial scarcity. That simply doesn't make economic sense.
    Mr. Latta. Thank you.
    Mr. Wheeler. Could I agree with my friend, Mr. Powell?
    Mr. Latta. No, not your time.
    Mr. Wheeler. OK.
    Mr. Latta. Continuing on, Chairman Powell, new applications 
are becoming possible with advanced networks such as self-
driving vehicles, remote surgery, and augmented reality. These 
will require extremely time-sensitive network management. What 
impact would the 2015 FCC rules, if they were restored, have on 
these applications?
    Mr. Powell. Well, I would like to be really clear, 
particularly on behalf of the cable industry. We don't dispute 
or dissuade anybody from pursuing strong net neutrality, 
codified rules that can be enforced.
    The only thing that we have an objection to is the ill-
considered application of Title II. Now, in credit to my 
colleague, Tom Wheeler, he was a regulator. He had a different 
problem than you have.
    He had the problem of finding a source limited authority in 
order to embrace the rules after a series of court cases that 
questioned whether they were acting beyond the authority that 
Congress had ever given them.
    This is not a limitation that applies to the United States 
Congress whose power is unbound by anything other than the 
Constitution. So the restoring of net neutrality is also 
restoring a sort of clever parlor trick to give the Commission 
FCC jurisdiction where you otherwise did not provide it.
    But writing on a blank slate, as you have the power to do, 
there is no need to import those steps in order to create 
effective rules. And so the restoring of them as is would 
create the same problem of unbalancing the flywheels of 
innovation I mentioned in my opening statement.
    Mr. Latta. Let me just ask you one quick follow-up. You 
know, when you worked on the four freedoms how did you get that 
consensus at that time?
    Mr. Powell. Yes, how does one ever get consensus?
    [Laughter.]
    Let me--I think what I would tell you is that I think one 
of the things we have forgotten as lawyers have taken over the 
net neutrality debate. In the early days of the internet open 
internet and net neutrality was an engineering principle. It 
wasn't a legal principle.
    It was the idea that you could use IP protocols and reach 
any consumer on any computer, whether it was a Macintosh or a 
Windows computer. Didn't matter what devices they use, what 
computers they use, and it ensured that it was a network that 
nobody centrally controlled, which is true today.
    In the phone network it was like a spoke and wheel in which 
somebody sat at the center of the network making all command 
and control decisions about the flow of traffic.
    In the internet world there is no central orchestrator. The 
network is owned by no one at its core and it flies around 
unfettered by any intervention.
    So what we understood was we were trying to give voice in a 
regulatory sense to what had already become a pretty rigid 
engineering concept and there was pretty universal bipartisan 
agreement about that was in fact how the internet worked and 
any policy should reflect that.
    Mr. Latta. Thank you very much.
    Mr. Chairman, my time has expired and I yield back.
    Mr. Doyle. Thank you. The Chair now recognizes Mr. Pallone, 
the full committee chairman, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    It has been noted, Chairman Wheeler, that you have had the 
unique experience of leading both the FCC as well as some of 
the industries that now oppose strong net neutrality and, as 
you know, when Chairman Pai sought to repeal the 2015 net 
neutrality protections, he did so citing the potential for 
increased broadband investment and now we hear investment went 
down after Chairman Pai's order was adopted.
    So I have two questions. The first one is, can you explain 
what is going on here? Was the 2015 order as bad for the 
internet service providers as they claim?
    Mr. Wheeler. Well, I think the evidence of that is no, in a 
word, and investment has--investment increased in the 2 years 
following the Open Internet Order as opposed to the 2 years 
preceding the Open Internet Order.
    Mr. Pallone. All right. Well, let me ask you my second 
question. Some internet service providers claim they don't 
oppose net neutrality protections that would stop blocking, 
throttling, or paid prioritization.
    But I worry and I know Chairman Doyle has expressed this 
about the threats to an open internet that we haven't 
anticipated. Rules like the general conduct standard that you 
included in 2015 rules and that Governor Murphy of New Jersey 
included in his executive order recently are aimed at providing 
a regulator the flexibility to protect consumers from new 
threats or unanticipated threats.
    With that in mind, why is it important to have strong 
Federal protections like the general conduct standard or 
protections for interconnection?
    Mr. Wheeler. Thank you, Congressman.
    You know, the interesting thing is that saying I am for an 
open internet--I am just not for the common carrier rules is 
kind of like saying I am for justice, just not for the courts 
overseeing it.
    One of the--the reason that I was saying to Mr. Latta that 
I agree with my friend, Michael, and the leadership that he 
showed with his four principles, and there is a huge difference 
between his four principles as Chairman and the advocacy that 
you are hearing today.
    The four principles are just that. They are principles. 
They are broad. They cover a multitude of topics. Blocking, 
throttling, and paid prioritization, that is it. And as I said 
in my--in my opening statement, what that means is you are free 
to do whatever you want in discriminating so long as you say, 
well, it is not blocking, it is not throttling, it is not paid 
prioritization.
    We do not know what the internet is going to be and we 
can't sit here and make Netflix-era decisions that we assume 
will apply tomorrow. The nature of the internet has changed 
since Michael did his four points and it is going to change 
again tomorrow, and our challenge is how do we make sure that 
the public interest is represented in that change.
    Mr. Pallone. Well, thank you.
    And I want to ask one more question. Ms. Gonzalez, I am 
concerned that the FCC ran a flawed process leading up to the 
repeal of net neutrality, specifically by ignoring thousands of 
consumer complaints and allowing millions of fake comments with 
stolen identities flood the docket and I am worried that the 
proceeding is tainted.
    So, Ms. Gonzalez, in your view, was the FCC's repeal of net 
neutrality tainted and does that put the repeal on shaky 
ground, in your opinion?
    Ms. Gonzalez. Yes, and we actually covered this in our 
petition for--our brief in the net neutrality case where we are 
a party. The process seemed to be guided by ideology and not 
facts right from the outset and in announcing his efforts to 
begin the repeal process Chairman Pai said, this is a fight 
that I am going to win.
    And it appeared that that skewed sort of the approach of 
the Commission. You mentioned thousands of potentially 
fraudulent comments in the docket that the FCC failed to 
investigate and just went ahead and rushed forward to a final 
order without truly vetting what was happening in the 
democratic process--rulemaking process.
    The electronic comment filing system that allows the public 
to weigh in went down the same night that John Oliver covered 
net neutrality on his--on his show and thousands of net 
neutrality complaints that had been filed by consumers with the 
net neutrality ombudsperson were not put on the record.
    The only reason we ever heard about them was that National 
Hispanic Media Coalition filed a FOIA request and analyzed 
those documents and found that what they showed was that 
people, the public, understand broadband internet access as a 
telecommunication service.
    So I, too, share your concern that it was a flawed process 
and that it puts it on shaky ground.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Walden, the full committee 
ranking member, for 5 minutes to ask questions.
    Mr. Walden. Thank you, Mr. Chairman, and I want to thank 
again all the witnesses.
    Mr. Franell, according to Ms. Gonzalez's testimony, and I 
quote, ``ISPs' own deployment and investment data show that 
Title II reinstatement and 2015 net neutrality rules did not 
slow down deployments, speed upgrades, or overall investment by 
ISPs,'' and she is relying on her own figures or the 
organizations' or wherever you got the data.
    I am not questioning that, but what I want to know is, Mr. 
Franell, from your standpoint as somebody on the ground doing 
build out what did you see during this period?
    Mr. Franell. Thank you, Congressman Walden.
    So, you know, it is interesting because I have read the 
U.S. Telecom report on investment and it shows a different or 
tells a different story than what I am hearing here today.
    So I don't know which set of numbers is right. All I can 
talk about is what things look like for Eastern Oregon Telecom 
trying to bridge the digital divide, doing the work in these 
very remote areas and when I say remote it is a different 
definition than what we have in the East, and I grew up a lot 
out here. So I know the different between East and West.
    And we--you know, we are talking about frontier areas and 
how do we serve those folks. And so as the discussion about 
applying Title II and net neutrality rules and, again, the 
big--the biggest issue for Eastern Oregon Telecom has been 
Title II, not fair use of the internet.
    Mr. Walden. Why?
    Mr. Franell. But I could not get loans from the bank during 
the net neutrality debate and during the net neutrality period. 
It was only as we started to hear the commitment from the new 
FCC to repeal Title II that we started to see the cash open 
up----
    Mr. Walden. Right.
    Mr. Franell [continuing]. That availability and, quite 
frankly, for more than a year I never got an offer from a 
single equity investor. Now I get them weekly almost, and 
investment cash flow has been freed up.
    So there had--at least from my perspective, there was a 
dramatic impact and it has changed.
    Mr. Walden. Thank you.
    Chairman Powell--Mr. Powell--a couple of things. One, we 
heard how Title II wasn't all that bad because so many of its 
provisions were forebeared by the then-Wheeler FCC. Could 
another FCC change its mind in terms of what would be forborne 
or not?
    Mr. Powell. I believe so. It is a discretionary act of the 
Commission.
    Mr. Walden. Would that require a full rulemaking to 
determine that, or could a Chairman do it?
    Mr. Powell. I think it would require a full Commission 
vote, yes.
    Mr. Walden. But they could do it on their own. Does that 
create uncertainty going forward?
    Mr. Powell. Well, obviously, it does. I mean, I think we 
could play a game about how many rules get forborne from. But 
what is important to remember is it is not the volume. It is 
which rules got forborne and which ones don't.
    Rules that didn't get forborne from do allow for lawsuits 
and challenges to rate making proceedings. It allows the 
Commission to opine on all terms and conditions of service to 
determine whether they are, quote, ``just and reasonable.''
    Almost all powerful net neutrality--I mean, all powerful 
Title II rules are derived from Section 201 and 202, which 
remain in force.
    Mr. Walden. So would--is it possible under Title II that 
phone traffic on the internet could be subject to fees like 
USF?
    Mr. Powell. Well, in fact, under the USF statutes if you 
are a telecommunications service provider it is mandatory under 
congressional law that you charge contribution factors to 
internet service.
    So to put this more simply, consumers on the broadband 
internet today or for the last, you know, 20 years have not 
seen that morass of phone charges, taxes, and fees that you see 
on a typical phone bill.
    But once an information service becomes a telecom service, 
there is an argument that the statute requires those same fees 
and charges go on to an internet bill, which means the 
consumer's bill would go up.
    Mr. Walden. So one of the issues I know some groups raised 
with me last year--I think it was the Realtors--very concerned 
about what they saw as paid prioritization net neutrality. But 
what they were really talking about was more uncertainness of 
some of the search engines and how you could buy rankings. They 
were afraid their competitors were being ranked up.
    Do you think these net neutrality provisions we are 
debating here should apply to the edge providers?
    Mr. Powell. Well, I do. I have always been stunned at the 
lack of comparison between the alleged behavior of ISPs with 
regard to neutrality and the actual demonstrable behavior of 
edge providers with regard to the same principles.
    It seems to me just this week we learned about Apple 
blocking Facebook applications in its store. Just this week we 
learned of Twitter blocking speakers who they disagree with. 
All those companies have subjective policies that determine who 
they allow to speak on their platforms and who don't. Facebook 
prioritizes news feeds at its choice. Google has a very 
profitable business model of allowing people to pay for who 
gets seen in search results higher than others.
    It is a hollow promise to consumers to say that we are 
going to guarantee a world of neutral access when all the 
destinations that you attend are engaging in the very practices 
that we say are supposedly so heinous if they are enacted by an 
ISP.
    So, at best, we are talking--we are having a very 
incomplete conversation.
    Mr. Walden. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Doyle. Thank you.
    The Chair now recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. Mr. McNerney from California. Yes.
    I thank the chairman and I thank the witnesses for your 
testimony this morning. No, the truth is my constituents care 
deeply about net neutrality. Just last March, more than 150 of 
my constituents attended a town hall meeting to voice their 
concerns.
    The way the FCC has handled this proceeding makes me 
question whether the agency even cared to hear my constituents' 
concerns and the concerns of millions of Americans who voiced 
their opposition.
    When the agency's failure to respond to my repeated 
requests regarding fabricated DDOS attacks to its failure to 
respond to FOIA requests and its failure to make thousands of 
submitted comments part of the record, there are major 
questions about how the proceedings were handled.
    In fact, FCC Commissioner Rosenworcel has accused her own 
agency of hiding information.
    Chairman Wheeler, briefly, please, would you make----
    Mr. Wheeler. I am hanging around too long.
    [Laughter.]
    Mr. McNerney. What would you make of how the agency handled 
the proceedings and is this any way to run a show?
    Mr. Wheeler. No.
    Mr. McNerney. That is brief. Thank you.
    [Laughter.]
    Mr. McNerney. More than 9.6 million identities were stolen 
and used to file fake comments in this proceeding. About 26,000 
of those were my constituents' identities. It is my 
understanding that these action are now being investigated by 
Federal and State law enforcement agencies and it has been 
publicly reported that Broadband For America and Free Press 
subpoenas are a part of this investigation.
    Chairman Powell, what is the NCTA's relationship with 
Broadband for America?
    Mr. Powell. We are a member of it.
    Mr. McNerney. Does Broadband for America still exist?
    Mr. Powell. Yes.
    Mr. McNerney. Is Broadband for America complying or its 
former representatives complying with subpoenas and document 
requests for the investigation?
    Mr. Powell. Yes, my understanding, they are.
    Mr. McNerney. Good. Did the NCTA ever engage Broadband for 
America to submit fake comments using stolen identities in 
those proceedings?
    Mr. Powell. Absolutely not.
    Mr. McNerney. OK. Well, we will be looking into that, Mr. 
Powell.
    Ms. Gonzalez and Mr. Powell, did either of your 
organizations' consultants or members pay for fake comments 
using stolen identities to be considered for the docket?
    Ms. Gonzalez?
    Ms. Gonzalez. No, sir. Absolutely not.
    Mr. McNerney. Chairman Powell?
    Mr. Powell. No, sir.
    Mr. McNerney. Thank you.
    Ms. Gonzalez, my home State of California is prone to a 
number of natural disasters from devastating wildfires to 
floods and earthquakes. During times of emergency and in the 
weeks and months that follow, people immediately rush to the 
web to check evacuation routes to see if their loved ones are 
safe and to find out if it is even safe to breathe outside.
    Ms. Gonzalez, if some information sources are taking 
priority because they paid for it and are unrelated to safety 
information people are trying to access in these circumstances, 
how might people's access to such information be affected?
    Ms. Gonzalez. I think, you know, it has long been the 
consideration of this committee and the FCC that public safety 
is one of if not the most important job that we have to do and 
we want to make sure that the Commission has the full authority 
to ensure the consumers are protected in those times.
    Mr. McNerney. Thank you.
    Ms. Livier, you gave a few examples of how open access was 
critical to establish artistic talent. Was the example list you 
gave exhaustive or is it the tip of the iceberg?
    Ms. Livier. That is the tip of the iceberg.
    Mr. McNerney. OK. And so you could give other examples if 
we asked for that?
    Ms. Livier. Yes, sir.
    Mr. McNerney. OK. I might be asking you to submit a list, 
if you would, of examples of that.
    Ms. Livier. I would be happy to, yes.
    Mr. McNerney. Ms. Dixon, I understand that some smaller 
ISPs including Sonic, which serves many of my constituents, 
raised concerns in a letter to the FCC that Chairman Pai's 
order would threaten their ability to interconnect with the 
larger ISPs.
    I would like to introduce a letter for the record, Mr. 
Chairman.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. Ms. Dixon, can you explain the risks to 
consumers now that the FCC no longer has a framework to address 
interconnection complaints?
    Ms. Dixon. It just creates the same issue. It puts the 
power in the hands of the larger ISPs. It puts the power in 
their hands to work with the largest companies on the web, the 
largest companies in the world, and leaves all the small 
businesses to have to wait and try to get the leftovers in the 
back and to go behind it.
    The interconnection agreements are a very important part of 
what the FCC needs to continue to regulate.
    Mr. McNerney. Thank you.
    Mr. Chairman, I yield back.
    Mr. Doyle. I thank the gentleman from the great State of 
California.
    [Laughter.]
    Mr. Doyle. The Chair now recognizes Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    First I want to make sure we recognize Marcia Latta, who is 
observing her husband's ascension to the leader of the Telecom 
Subcommittee, and he didn't do that--we usually forget our 
spouses in public speaking engagements. So I have learned that 
that is a bad mistake.
    [Laughter.]
    Mr. Shimkus. Secondly, to the new members of the 
subcommittee, this is why this is a great full committee and 
this is why this subcommittee--I mean, we have got really very 
articulate experts who are trying to wrestle with an issue.
    As the chairman of the full committee has reminded me 
numerous times, if we want--if--you know, we could have 
messaging fights, and we will have those, or we could pass 
laws.
    And when we were in the majority I learned from that 
because when I had to pass things through my subcommittee I had 
to reach for that bipartisan compromise if we wanted to pass a 
law. If we want to have this fight and pull our hair out--I 
taught high school--for a bill to become a law, the President 
has to sign it.
    He is not going to sign this. So I think what our attempt 
is to say is, where do we go to the middle--where do we address 
these real problems?
    Now, I sympathize a lot with Mr. Franell because I 
represent 14,000 square miles in southern Illinois. And Ms. 
Dixon, Mozilla is a foundation. Does that mean it is a not-for-
profit?
    Ms. Dixon. We are owned by a not-for-profit.
    Mr. Shimkus. Yes. So a lot of my communication providers 
are not-for-profits, just like in districts like Mr. Franell, 
where they are--I understand that approach to small business.
    Our approach to small business is little, small businesses 
in towns that don't even have access yet, and Chairman Wheeler 
or Chairman Powell know that I have been focused, throughout my 
life, about mapping.
    Let us find out where we have service and where we don't.
    Mr. Wheeler. Yes.
    Mr. Shimkus. And then where do we find out how fast that 
service is so that when we have these battles--Anna, do you 
want time? OK. I thought you were trying to--I thought you 
were--so if we are going to be involved how can we help get 
that full build out? It would be helpful to everybody.
    So I have always been focused in this debate about how do 
you build out. How do you get the fiber into the ground, and I 
am not as smart as you all but I know that that's private 
sector dollars that do that and there has got to be an 
incentive for them to lay the fiber.
    And fiber is a lot better than coaxial cable and there is 
more information going out. So I would hope and I would plea 
that we eventually get through the emotion, which I am not 
discounting, and we focus on fixing this problem, because if I 
finally get my small businesses connected in Gallatin County--
Old Shawneetown, right--they are going to want to have full 
access. But I got to get them access first. Otherwise, it is 
kind of a moot point to some of us who represent rural areas.
    So I hope--I just hope we get there. You know, we are 
having this big fight on border security and one of the 
responses is walls, fencing, and some is smart technology.
    Now, the southern border, as you probably all know fairly 
well, is pretty rural. If you are going to use drones--I mean, 
and this the--one of the Democrat responses is let us do smart 
technology--let us do drones--let us do technology--let us--
cameras and let us see who is coming.
    That will require a lot of investment and a lot of build 
out. Would there--should, if there is information of child 
trafficking, fentanyl being pushed across the border--is there 
any role for anyone to prioritize information?
    So if we want our border security guys to go and stop a 
coyote bring across child trafficking, and that information is 
trying to get to the operation--the tactical operation center--
former military guy like Mr. Powell--should that be 
prioritized?
    And I guess my time has expired and I don't--it is your 
call, Mr. Chairman.
    Mr. Doyle. If Mr. Powell wants to answer that briefly I 
will give him the opportunity. But was there a question in 
there?
    [Laughter.]
    Mr. Shimkus. Yes. We need to build more fiber.
    Mr. Doyle. Do you guys have to mention the wall at every 
hearing?
    [Laughter.]
    Mr. Shimkus. I didn't yesterday.
    Mr. Powell. Well, Mr. Chairman, I will just take advantage 
of the opportunity to say----
    Mr. Doyle. Briefly.
    Mr. Powell [continuing]. When I was Chairman I was a huge 
champion of public safety, and I think it is a perfect example 
of why we should be careful about what we mean about no 
prioritization.
    There are societal uses that we will all agree should 
employ a higher priority over other uses. It is true in every 
tangible part of the economy. I don't know why we think it 
wouldn't be true in the digital space.
    Mr. Wheeler. Well, there is just one thing that you left 
out, though.
    Mr. Doyle. Yes.
    Mr. Wheeler. The 2015 rule allowed for that kind of 
prioritization. Mr. Shimkus and I started working 20 years ago, 
probably longer than that, on public safety issues and we 
allowed--we made sure that the 2015 rule allowed for that kind 
of prioritization.
    Mr. Doyle. Thank you.
    The Chair now recognizes the vice chair of the full 
committee, Ms. Clarke, 5 minutes.
    Ms. Clarke. Thank you--thank you very much, Mr. Chairman. I 
thank the ranking member and I thank all of our expert 
panelists for bringing your expertise to the table today, and I 
say good afternoon.
    I am glad that we are having this hearing and we have 
decided to kick it off this week with the hearing on net 
neutrality. This issue is a major concern for my constituents 
on the State of New York.
    In fact, Governor Cuomo signed an executive order to keep 
the net neutrality rules in place post-FCC repeal. 
Additionally, former New York Attorney General Barbara 
Underwood led a lawsuit with 22 other attorney generals to 
reinstate the 2015 open internet rules and led an investigation 
into fraudulent net neutrality comments.
    So along the lines of Mr. McNerney of California, I would 
like to just ask a couple of things. Well, first, I want to 
highlight a few things--the voices that the FCC ignored in 
2017, those like Brooklyn's own Take Shape and Staff Base and 
millions of other small businesses across the country whose 
existence depends on a free and open internet.
    And the irony of millions of Americans that took the time 
to write the FCC opposing the repeal of net neutrality and that 
literally broke the public comment records doing it, yet their 
voices went unheard.
    So, Chairman Wheeler, can you explain why so many small 
businesses oppose the gutting of the 2015 net neutrality 
protections? I think that we need to have that in context and, 
you know, even when we talk about rural communities the idea at 
the end of the day is to get us to a broadband ubiquity. But 
what does this mean for small businesses?
    Mr. Wheeler. Thank you very much, Ms. Clarke.
    If a business cannot get to its consumers it does not have 
a business, and the network that connects us all in the 21st 
century is the internet.
    I remember a time when I was in eastern Kentucky meeting 
with coal miners who were learning to code because they had 
lost their mining jobs. But I also met with a young man who had 
a guitar shop in Pikesville, Kentucky. When the bottom fell out 
of the coal economy the bottom fell out of his guitar shop.
    But he went on the internet and started selling guitars on 
the internet, and he is now a bigger business in Pikesville 
than he was when he was not.
    If you can't get to your customers you don't have a 
business and the internet is how you get to your customers.
    Ms. Clarke. Very well.
    Ms. Livier, your testimony discussed how in your line of 
work lots of jobs are being migrated to the digital space and 
how this is an opening opportunity for people of color.
    How do small companies and entrepreneurs alike end up on 
the losing end in the 21st century economy without open 
internet protections?
    Ms. Livier. First, there is a series of ways in that you 
lose out, right. From my experience as an actress and as a 
creative person, how are people going to find you online if 
somebody has a faster lane than you do? So they are going to 
win out in order to, like, reach a client.
    I do, for example, voice work and if I recorded on my 
laptop at home and I sent it in to my client, but if my 
connection is slow then that is going to cause a problem.
    So for an independent like me and folks like me it is 
really important to have an open internet so that is an even 
playing field. Otherwise, we can't--we can't compete. We don't 
have the pocketbooks to pay for access and that shouldn't be 
the case.
    Ms. Clarke. Absolutely. Thank you for your response.
    Ms. Gonzalez, anything you would like--you would like to 
add on that?
    Ms. Gonzalez. Yes. I mean, there is a lot of research out 
there, Congresswoman, about how people use the internet and 
what even a couple of seconds of delay does--turns people away 
to different sites.
    So if I am an independent creator or if I am like my 
friend, Vanessa, who runs her own blog--she is two rows behind 
me with her 9-year-old daughter today--and my site is slightly 
slower than other content produced by mainstream media, some of 
whom also own the pipes--Comcast owns NBC Universal--they are 
producing content that competes with Vanessa's content--she 
will tell you herself she can't pay to go faster to access 
audience and even a few seconds of delay, people want it now.
    We are in a rapid economy, rapid expectations about how we 
are delivered our content and it really would hamper 
competition and her ability to run her own business, reach an 
audience, earn a living.
    Ms. Clarke. Very well.
    Mr. Wheeler, in 2014, interconnection disputes involving 
edge providers, backbone companies, and the last-mile ISPs 
resulted in Netflix video service being degraded for some--I am 
sorry. I yield back, Mr. Chairman.
    Mr. Doyle. Thank you.
    Ms. Clarke. Didn't realize the time.
    Mr. Doyle. The Chair now recognizes Mr. Olson from the 
great State of Texas, 5 minutes.
    Mr. Olson. I thank the Chair. Congratulations on your 
having the gavel for the 116th Congress. Here we go again, or 
as the New York Yankee sage wisdom of Yogi Berra said, ``deja 
vu all over again.''
    It doesn't matter if a Democrat is in the White House, a 
Republican in the White House, a Democrat Speaker, or 
Republican Speaker. We fight, fight, and we fight and do 
nothing about net neutrality, and our inaction has forced 
agencies like the FCC and the administration to try to fill the 
void.
    And that is sad because as Chairman Latta mentioned in his 
opening statements, we have so much in common--so much common 
ground. For example, the title of this hearing, Preserving an 
Open Internet for Consumers--yes. Small business--yes--and free 
speech--double yes.
    And then the spirit of bipartisanship, the donkey and 
elephant in the room, Title II, and that is when this whole 
thing breaks down because, as Mr. Latta mentioned, Title II is 
based on the phone of Alexander Graham Bell right over there.
    And, sadly, instead of working together as neighbors and 
friends and solve this problem once and for all, we keep going 
down this road over and over and over.
    My first questions are for you, Mr. Franell, and Chairman 
Powell. In you all's testimony--mostly you, Mr. Franell--your 
testimony brought an in-depth analysis of how Title II 
regulations would harm small ISPs.
    I was hoping you could expand on how shifting away from 20 
years of previous precedent of being regulated under Title I 
would affect small ISPs such as yours.
    Mr. Franell. Thank you for the question and, for the 
record, I graduated from high school and college in Texas. So 
thank you very much for----
    Mr. Olson. The stars at night.
    [Laughter.]
    Mr. Franell. And so the reality of my world is, and Eastern 
Oregon Telecom has been around for almost 20 years--in those 20 
years we were created to provide advanced telecommunications in 
a market where the incumbent was not doing their job and today 
that is still true.
    So in the markets that we serve, Eastern Oregon Telecom, a 
nonregulated competitive carrier who takes no Federal dollars, 
no State dollars, is providing 100 meg service or gigabit 
service to the communities that we serve while the incumbent is 
still struggling to provide ten one.
    So we are doing that in an area that on the interstate 
takes about an hour to drive going 70 if you are driving the 
speed limit, from one end to the other, and crosses into the 
Washington border.
    We do that with 19 employees. Every dollar that we have 
made since we started has been reinvested in the company. There 
has not been a single distribution even for taxes to the 
owners, of which I am one. So the tax thing is painful, by the 
way.
    So even as a nonregulated ISP, there are reporting 
requirements. I still have to report the 470, 499--all of those 
reporting requirements to the FCC that helps with the mapping, 
even though it is not accurate.
    It is still a problem. You know, we are still doing our 
part. I probably am--between the State and the Federal 
requirements I probably have a third full time equivalent right 
now dedicated to regulatory reporting.
    Now, to put that in perspective, every fixed wireless tower 
that I put up I can put up and activate for about $10,000 and 
each one of those towers can serve a community or about 500 
addresses.
    So if I am--if I am paying full bore for a third full time 
equivalent, that means I am probably not expanding my 
infrastructure by some percentage every year. If you add a 
layer to that or layers to that, then I can't keep up and I 
can't continue to expand the network.
    Mr. Olson. So, basically, if it is under Title II your 
small business gets hit hard and over time fades away, fades 
away, and eventually it is gone?
    Mr. Franell. Or, at a bare minimum, is no longer able to 
continue to expand and serve unserved or underserved 
communities in the rural remote areas of eastern Oregon and 
eastern----
    Mr. Olson. No new jobs, no new revenue, no new equipment, 
no growth, no growth, no growth.
    Thank you. I yield back.
    Mr. Doyle. Thank you.
    We now recognize Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Chairman Doyle and Ranking Member 
Latta. Really happy that we have got a good team there leading 
this committee.
    I am a little concerned if I am going to have to keep 
following Mr. Olson every time, given that we are up here on 
the top. But we have worked together on things and thank you so 
much.
    Mr. Olson. Stay away from the Army and the Astros and we 
will be fine.
    Mr. Loebsack. Yes. We are OK with Navy. That is right. 
Thank you.
    A lot of great people here on the panel--a lot of great 
issues that we have discussed. I have worked--I have worked 
with a number of folks on the other side of the aisle since I 
got on this committee on a number of these issues, and I do 
want to thank you, Mr. Franell, for being here because we have 
over a hundred companies like yours in the State of Iowa.
    My district is about the size of Shimkus', maybe not quite 
as big. Walden reminds us all the time that his district is 
bigger than my State. So I understand the issues in rural 
America.
    But I worked with Congressman Walden to try to reduce some 
of those regulatory burdens on folks like you when I first got 
on this committee 4 years ago. I worked with Congressman Latta 
on precision agriculture--I am going to get to that in a 
second--and worked with former Congressman Costello on the 
mapping--I am going to get to that in a second, too.
    I have some faith--how much, I don't know--but some faith 
that we can arrive at some kind of bipartisan solutions to 
these issues and I am looking over here at Gianforte. He is, 
like, why am I not talking about him because we worked together 
on EMS issues as well the last Congress, and I appreciate that, 
Greg.
    I talk all the time about rural broadband. That is my 
thing. It has to be given to the people I represent in the 2nd 
District of Iowa and, you know, we have got to do everything we 
can to make sure that the quality of service is there and we 
are able to build out, going forward.
    I was going to ask a small business question but that has 
kind of been dealt with. I do want to go right to precision 
agriculture's growing importance with connectivity in 
agriculture, how important--I want to ask Mr. Wheeler this 
question.
    How important do you think the Open Internet Order 
protections are for advancing smart and connected agriculture? 
What threats do you see for precision agriculture if these 
principles are not in place?
    Mr. Wheeler. Thank you, Congressman.
    You know, it is interesting to watch how technology--and 
you watch it far more closely than I do--but how technology has 
changed the nature of the agricultural activity and, you know, 
the day when you had a GPS to your tractor changed productivity 
for agriculture in a huge way.
    We are now moving to a period where fifth generation and 
next generation broadband services are going to be able to put 
out into the field things that we haven't even imagined, any 
more than we imagined the GPS to the tractor those years ago.
    The reality, however, is that somebody is going to control 
whether or not that capability gets to that field and when you 
say, well, we are only going to do blocking, throttling, and 
prioritization, then you say everything else that I can do to 
advantage myself as the provider of the service can be done.
    And so what--a key component of the 2015 order was how do 
we maintain flexibility to take a look at what happens--what we 
don't know is going to happen but we know will happen. That is 
an essence of--a key essence of how you deal with maintaining--
not just having an open internet today but maintaining an open 
internet tomorrow.
    Mr. Loebsack. Thank you. I want to move on to a mapping 
issue. We have got an REC in my district--Chariton Valley Rural 
Election Cooperative--and they are trying their best--they have 
tried every which way to get the FCC to allow them to provide 
broadband service to their service area. But the mapping as it 
now exists doesn't allow them because it says that there is a 
lot more coverage there than there in fact is.
    And as I said, I worked with Ryan Costello on a bill on 
that. The FCC is supposed to be coming up with better maps as 
we speak. But it depends upon the data that they are using, 
obviously.
    I guess I want to ask both the former Chairmen, starting 
with you, Chairman Powell. How the heck are we going to deal 
with this? I mean, Shimkus brought this up. You know, this is 
something that we are just fighting with all the time--and 
especially to make sure that we get people who want to provide 
that service who might not be an incumbent carrier. They are 
not even a telco. It is an REC. How do we get to that point?
    Mr. Powell. Well, I think you have all been very articulate 
about the essential essence and importance of mapping, and I 
know you have directed and the Commission is working hard to 
improve their map. So, hopefully, we will get an improvement 
with that.
    Specifically with respect to the circumstances of your 
company and constituent, I would recommend to them there is a 
process in place at the FCC to challenge and appeal the current 
mapping to be able to demonstrate to the Commission that an 
area that they show is underserved or unserved is in fact 
unserved.
    Mr. Loebsack. Right.
    Mr. Powell. And I am sure that they have been counseled and 
are pursuing that process. So I think that is very, very 
important to them.
    Mr. Loebsack. Thank you, and I know my time has expired. 
Thank you so much, Mr. Chair, for letting me go on.
    Mr. Wheeler, if you would get back to us on that other, 
appreciate it.
    Mr. Wheeler. Well, we were also whispering back and forth 
here. We agree.
    Mr. Loebsack. Yes. Thank you.
    Mr. Wheeler. How is that for a short answer?
    Mr. Doyle. I thank the gentleman. The gentleman yields 
back.
    We will now recognize Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. Congratulations, 
Mr. Chairman, and I want to congratulate the ranking member as 
well, and also thank you for the bold nameplates, because I 
have always had a difficult time seeing the nameplates and 
identifying the witnesses. So I appreciate that very much.
    Again, first, I want to acknowledge that we need to protect 
users from any blocking and throttling of service that threaten 
freedom of thought and consumer choice on internet services.
    At the same time, I do not want to subject the internet 
ecosystem to a system of heavy-handed agency control regardless 
of the administration in charge. This too will lead to 
limitations on consumer choice and limits on broadband 
deployment.
    Since the 2008-2009 recession, private broadband spending 
increased year over year except during the period of time Title 
II scheme was in place. And in a October 15th, 2009, letter to 
the FCC, 72 Democrat Members agreed that the Commission should, 
and I quote, ``carefully consider the full range of potential 
consequences that Government action may have on network 
investment,'' unquote, and urged against Government regulation.
    Mr. Chairman, I would like to submit the October 15th, 
2009, letter in to the record.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Bilirakis. Thank you. Thank you, sir.
    I have a couple questions. Mr. Franell, in the absence of a 
Federal solution, how does the prospect of State patchwork 
legislation impact any interests you may have in expanding 
services and creating competition just north of you to 
Washington State and beyond?
    Mr. Franell. Congressman, thank you for the question.
    So we currently do provide internet service across the 
river. We serve some wineries so you should come visit, and 
some large farms. We also serve a small community that is right 
on the river on the Washington side and, you know, any time 
there are cross-border jurisdictional differences in 
regulations it creates, you know, a layer of, first of all, 
uncertainty where, OK, well, what is different in Washington 
than in Oregon. Washington has got a net neutrality law. Oregon 
has got a net neutrality law. They are different. How do we 
manage that now?
    It is less of a problem for us because our goal is not 
making money by manipulating things. Our goal is to transform 
rural eastern Oregon, eastern Washington, and perhaps other 
areas with broadband and so that is our focus. So, you know, 
this other discussion about manipulation and all that, that 
doesn't even fit into our culture as a company. But anything 
that makes things more complex, you know, it slows us down. It 
adds a layer of uncertainty when we are dealing with different 
regulatory environments.
    And so I would prefer to see a national standard for this 
and, again, a light touch. I am not absolutely advocating for 
Title II. I think that that is a bad idea.
    But legislation from the Federal Government solves this 
uncertainty as we look at other States in the West and the 
Pacific Northwest and expanding in those areas, knowing what--
that the playing field is the same would provide us a lot of 
confidence. Not having that creates uncertainty and makes us 
hesitant to expand in those areas. I hope that answered your 
question.
     Mr. Bilirakis. All right. Thank you very much for the 
input. Also, again, for you, Mr. Franell--for the most part, a 
business survives on maintaining a good relationship with its 
customers, obviously. How has the public misunderstanding of 
the 2015 order impacted the relationship you have with your 
customers despite your business not engaging in anticompetitive 
acts?
    Mr. Franell. It was actually quite disturbing how angry 
people got over the topic of net neutrality, and when I talked 
about the inability to have a conversation about this that was 
rational I started talking early on about some of my concerns 
about net neutrality in the local newspaper, in the East 
Oregonian, and the feedback was visceral and irrational and I 
think it was driven off of fear.
    So people were afraid that even though we clearly stated up 
front that we don't manipulate traffic, we just--that is not 
who we are----
    Mr. Bilirakis. Yes.
    Mr. Franell [continuing]. That they just were suddenly 
fearful and distrustful of all ISPs and somehow it became an 
evil entity. And so it was disturbing because our business is 
built on relationships.
    Mr. Bilirakis. What about now? Are you still getting that 
to a certain extent?
    Mr. Franell. We will see when I get home after this 
hearing.
    Mr. Bilirakis. OK.
    [Laughter.]
    Mr. Bilirakis. All right. Good answer. Good answer.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Doyle. Thank you. The gentleman yields back.
    The Chair now recognizes Mr. McEachin for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman, and thank you for 
the leadership that you are demonstrating on this issue and the 
leadership that you are providing this committee.
    I am going to start off by apologizing to my staff, who 
worked so diligently on questions last night. But I am going to 
call an audible and go off in a little bit of a different 
direction.
    Mr. Franell, I am a recovering trial lawyer and----
    Mr. Franell. Bless your heart, sir.
    Mr. McEachin. Thank you. And as such, I am awfully 
impressed by analogies and I am awfully impressed by what I 
would call stare decisis, and Mr. Wheeler has taken us back on 
a journey of 600 years of common law tradition where he tells 
us that the ferryman in England couldn't discriminate as he 
took people across the river.
    That has a certain appeal to me because at the end of the 
day aren't you just a ferryman who is taking me from one part 
of the internet to another?
    Mr. Franell. Yes, sir, and that is why we don't 
discriminate with traffic.
    Mr. McEachin. Well, and I heard you give some support for 
the notion of a legislative scheme coming from Washington that 
ensures that. What would that look like if it is not Title II?
    Mr. Franell. Well, and I am not a--I am not an attorney and 
I am not a legislator. I am a small businessman.
    Mr. McEachin. Well, we forgive you for that.
    Mr. Franell. But I--you know, I----
    [Laughter.]
    Mr. Franell [continuing]. Think that we need to first 
define what is our desired end state, and it is a free and open 
internet unencumbered by interference, especially 
noncompetitive, from any provider whether it be the ISP----
    And we focus so much on ISPs but, rightly so, a lot of this 
discussion has to revolve around the browsers, the end users, 
the edge--you know, those are the folks that today are actually 
engaging that more often than the ISP. Most of the ISPs that I 
know that is not our business model and so we don't do that. 
And so I think we have to figure out a way to address that 
issue, to create clear boundaries on behavior, so that when 
people in--an end user like myself goes on the internet, I have 
confidence that I am going to get where I want to go without 
somebody interfering.
    Now, I did talk about prioritization, and I think 
prioritization is--I shouldn't be deciding on prioritization. 
Society should be deciding on prioritization. We have talked 
about public safety an awful lot and how they need 
prioritization. That is at the heart of the FirstNet network, 
that we are spending hundreds of millions of dollars on it 
maybe in the--with the big B--I can't remember the amount--
where it is this nationwide interoperable network that provides 
prioritization for public safety.
    That solves a lot of that problem. But, you know, that is a 
national decision. That is not me making that decision, 
although I would love to be able to prioritize every 911 call 
that goes across a county line and it is a long distance call. 
I think that should just always be first.
    But, you know, Title II and net neutrality says Joe, you 
ought to just stay out of that because somebody is going to 
yell at you--somebody is going to get upset with you--you are 
going to end up in front of Congress, and here I am.
    Mr. McEachin. Mr. Wheeler, I am in my second term in 
Congress and new to these discussions. So I urge you and 
perhaps your friend, Mr. Powell, to write a book called ``Net 
Neutrality for Dummies.'' It should be in a yellow cover and 
that sort of thing.
    [Laughter.]
    Mr. McEachin. But until you get a chance to do that, can 
you comment on what Mr. Franell said and tell me where the 
pitfalls might be? Or maybe you agree with everything he said.
    Mr. Wheeler. So, you know, I think thank goodness for the 
Franells and the Eastern Oregon Telecom of the world because 
delivering to rural America is essential.
    Several things--one, the laundry list that he went through 
in terms of the kind of forms he has to file and has to hire 
this person to do, most of those are not a result of the Open 
Internet Order.
    They deal, for instance, with the mapping question that we 
all talk about. They deal with other issues that the FCC needs 
to collect information on.
    Number two, prioritization for public safety activities is 
specifically allowed for under the 2015 act, and point three, 
sir, it is not just the firefighters or the policemen who ought 
to have the--who are affected by the lack of an open internet 
but it is also the people who are the victims of those 
emergencies who themselves need to get online and are 
experiencing the same blocking or throttling realities and, as 
a result of the decision of the Trump FCC, have nowhere to go 
because that is not an unfair or deceptive act or practice so 
long as you say, I am going to be doing that. And so there is 
no place to go.
    We need to make sure that we have open networks and an open 
network includes openness and prioritization for basic and 
essential public services.
    Mr. McEachin. Thank you. My time has expired and I yield 
back.
    Mr. Doyle. Thank you, Mr. McEachin, and I apologize for 
keep butchering your name. I think I got it right now.
    The Chair recognizes--yes, Billy, you are recognized for 5 
minutes--the great State of Missouri.
    Mr. Long. Am I that forgettable?
    [Laughter.]
    Mr. Doyle. I just couldn't see over there, Billy, you know.
    Mr. Long. Yes, I know. I am a little guy.
    Well, welcome to this round of Double Jeopardy, and today 
in Double Jeopardy, just like all ``Jeopardy'' shows, you need 
to form your answer in the form of a question.
    So if I were to show you Mike Pence, you would say, ``Who 
is the Vice President?'' All right.
    Ms. Gonzalez, you are up--first round. Who is this?
    Ms. Gonzalez. Who is Mr. Boehner.
    Mr. Long. Who--kind of close--Who is Speaker Boehner? Thank 
you. And there is $45 for each correct question. I have your--
--
    Ms. Gonzalez. All right.
    Mr. Long [continuing]. $45 up here.
    [Laughter.]
    Mr. Long. And next we have Mr. Powell. Mr. Wheeler, would 
you not bother the witness? I am trying to communicate.
    [Laughter.]
    Mr. Long. Next, we have Mr. Powell, and Mr. Powell, the 
question--or the answer--you need to ask the question but the 
answer is----
    Mr. Powell. Who is Speaker Pelosi?
    Mr. Long. Very good. Very good. You get $45.
    And Mr. Wheeler, you are adept at history, as you have 
proven here today, and I know that you are a great historian 
so----
    Mr. Wheeler. I am terrified at the picture that is coming 
up.
    Mr. Long. I have already given you your $45 as you--as you 
were trying to show Mr. Powell there. So I have great faith 
that you know the answer to this, and so the question--I guess 
this is answer. You are going to ask the question.
    Mr. Wheeler. Oh, wait a minute.
    Mr. Long. Correct. That is----
    Mr. Wheeler. That is John Sherman, is it not? No? Who is 
it?
    Mr. Long. I will get my $45 back.
    Mr. Wheeler. OK.
    [Laughter.]
    Mr. Long. No. This is Henry--Speaker, excuse me. I am doing 
Ms. Gonzalez's trick. It is, Who is Speaker Henry Thomas 
Rainey? He was Speaker of the House when Title II passed 
Congress in 1934.
    Mr. Wheeler. A wise man.
    Mr. Long. And I think even Speaker Rainey would admit that 
a bill that he passed should not be governing this century's 
internet.
    So a question for Mr. Powell. Mr. Powell, if we all agree 
that the 21st century Congress should establish basic net 
neutrality rules, can't we solve the problem by putting them 
under new authority and not use a set of rules passed by the 
very distinguished Speaker Rainey?
    Mr. Powell. Most certainly. You know, it is a little 
frustrating to hear people cite certain virtues of certain 
elements of Title II, which certainly could be in some form of 
the other written into anything new and organic, without 
considering the millions of pages of things that aren't 
considered that would also automatically apply.
    It is the difference between should you dump them out in 
the regulations on a new and emerging service in the hope you 
can whittle away at it to make it optimal, or should you write 
from a clean sheet of paper up in order to tailor it to the 
circumstances that are affecting you.
    I have always believed that the internet is so dynamic, so 
different, so radically varied from the telephone system that 
any thoughtful effort to write regulations with respect to its 
oversight should be done from the ground up, not from the 
historical mountain down.
    And so there are no limits to Congress' power. It can have 
rules strong. It can add enforcement strong and it can create 
the sufficient amount of nimbleness to address unforeseen 
situations.
    I think it is a red herring to suggest that only that body 
of law affords that possibility of intended----
    Mr. Long. Let me move on to another question for you.
    Chairman Powell, we have seen a rise in the number of 
comments filed in response to policymaking proceedings at the 
FCC since your time as Chairman. However, the underpinnings of 
the Administrative Procedure Acts, legal--APA legal 
requirements involving the FCC's treatment of those comments 
remained largely the same as when you were the Chairman.
    The APA requires agencies to consider all comments received 
but does the APA require the FCC or administrative agency to 
verify the identity of a commenter before it can be considered?
    And in the spirit of John Dingell, that is a yes or no 
answer.
    Mr. Powell. No, it does not require that.
    Mr. Long. Is the FCC under any legal obligation to adopt--
to adopt identity verification procedures? Yes or no.
    Mr. Powell. Not that I am aware of.
    Mr. Long. If the public had to supply--if the public had to 
supply proof of identity before a comment could be considered 
with the FCC, could the additional burdens, not to mention 
force public be one of the beliefs impacted by the full and 
robust public participation of policymaking proceedings that 
have enjoyed, and I think that is probably it.
    Mr. Powell. Yes.
    Mr. Long. OK. Now, in my final 15 seconds here of 
``Jeopardy,'' I would like to ask for unanimous consent to 
enter into the record a report examining the influence of the 
Obama administration over the Wheeler FCC's decision to go down 
the path of Title II.
    Mr. Doyle. Without objection, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190207/108845/
HHRG-116-IF16-20190207-SD009.pdf.
---------------------------------------------------------------------------
    Mr. Long. Yield back my 1 second. I did it.
    [Laughter.]
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes the gentleman from Florida, Mr. 
Soto, for 5 minutes.
    Mr. Soto. Thank you, Mr. Chair, and I think we are 
developing a consensus that we do need to update the law a 
little bit and I am glad to hear at least that much agreement 
in the committee.
    You know, the Communications Act was from 1934 under 
Franklin Delano Roosevelt. I won't--I don't have flash cards to 
show you all but radio and telephone were the ones that were 
covered at the time under Title II--common carrier--and in 1984 
Congress did an amazing thing.
    We actually added another chapter, Chapter 6, on cable. 
That was 10 years before the World Wide Web was even born. Bell 
System was broke up at that time.
    Macintosh PCs and Dell computers were just launched. Mark 
Zuckerberg was born that year. People used pagers and cell 
phones the size of bricks, costing thousands of dollars. So I 
think we all understand it is time, right. The internet is not 
a fad.
    The FCC tried to legislate but that is always going to be 
ephemeral. It is always going to be ping ponging back and forth 
between administrations.
    And so I think the most constructive thing we could do with 
our time is hear from everybody and develop a new chapter. It 
is time for Congress to act. It is time to have a new chapter 
covering the internet with new rules for the 21st century.
    But I reject this being used as a stall tactic. It is time 
for a call for action for it rather than using this to just 
have more of the same for the next 2 years in this Congress. 
But we need rules of the road for not only ISPs but content 
providers and others.
    There is a lot of folks that make up the internet and so it 
would be great to hear, briefly, one priority from each of you 
that--of what should be in that chapter. And keep your remarks 
brief or I will, unfortunately, have to cut you off.
    We will start with Chairman Wheeler.
    Mr. Wheeler. A referee on the field with the ability to 
throw the flag for unjust and unreasonable activities.
    Mr. Soto. OK. And Ms. Livier?
    Ms. Livier. I am going to piggy back on that and have that 
folks need to be held accountable and know that there is going 
to be some repercussions if they are not playing fairly.
    Mr. Soto. And Mr. Powell?
    Mr. Powell. I would endorse the original four freedoms that 
I sponsor with sufficient flexibility to address unknown 
situations in the future.
    Mr. Soto. And Ms. Gonzalez?
    Ms. Gonzalez. I would support legislation that adopts the 
full protections of the 2015 net neutrality order.
    Mr. Soto. And Mr. Dixon?
    Ms. Dixon. Ms. Dixon.
    Mr. Soto. Oh, sorry. Ms. Dixon. I am sorry. That says Mr. 
Dixon in our witness list.
    Ms. Dixon. That is OK.
    Mr. Soto. Ms. Dixon. I am sorry about that.
    Ms. Dixon. We would support legislation that has 
flexibility for enforcement. The most important thing is making 
sure that there is a cop on the beat.
    Mr. Soto. And Mr. Franell?
    Mr. Franell. Thank you. I would--I would add that all 
pieces of the internet be treated equally so, again, not this 
myopic focus on the ISP but the whole internet so that the 
experience of the end user is equal across the board.
    Thank you.
    Mr. Soto. OK. Thank you for your input. That is what we are 
really here for, to actually use this committee to hear 
testimony and develop a new chapter, at least from my opinion, 
and I appreciate all of your advice on that as we are looking 
forward to working with everybody to develop actually a new 
chapter for the internet for the 21st century.
    So thank you for that and I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate it, and 
congratulations on your gavel. I look forward to working with 
you this session.
    My colleague, Mr. Long, submitted for the record the 2016 
Senate report entitled, ``Regulating the Internet: How the 
White House Bowled Over FCC Independence.'' This report 
documents how FCC staff were working on a net neutrality order 
that did not use Title II for consumer broadband right up until 
the moment President Obama announced support for Title II.
    Chairman Wheeler, it is good to see you again.
    Mr. Wheeler. Sir.
    Mr. Johnson. Are you enjoying your retirement?
    Mr. Wheeler. It is a different life.
    Mr. Johnson. It is a different life. Good. Well, you have 
stated publicly that Title II is the only legally sustainable 
way to protect net neutrality.
    Putting aside for the moment the fact that the DC Circuit 
gave the FCC a roadmap for adopting net neutrality without 
Title II and your lead proposal for open internet regulations 
relied on Title I, isn't it true that Congress can create new 
authority to protect net neutrality? A simple yes or no would 
be helpful.
    Mr. Wheeler. Well, I need to also respond to the aspersions 
that you have made about me and my decisionmaking.
    Mr. Johnson. No, I didn't--I didn't make any aspersions.
    Mr. Wheeler. There have been--there have----
    Mr. Johnson. I need an answer to the question. We are not 
going to debate.
    Mr. Wheeler. There have been--there were five hearings over 
nine days held by this body--on this issue and did not come 
up----
    Mr. Johnson. So isn't it true that Congress can create new 
authority to protect net neutrality?
    Mr. Wheeler. The Congress always has the ability to do 
whatever they want. The question is, what are they going to 
do----
    Mr. Johnson. OK. Good. I appreciate that. That is good for 
now. We are done. We are done.
    Mr. Wheeler. What is the quality of the----
    Mr. Johnson. No, we are done. We are done, Mr. Wheeler. We 
are done. I have asked my question to you, so now we are done.
    Mr. Franell, your written testimony states that since the 
repeal of net neutrality investors have been much more willing 
and perhaps eager to invest in rural telecommunications.
    As I represent a rural district in eastern and southeastern 
Ohio, this is encouraging to hear. So do you think the 
broadband market is more competitive or less competitive than 
it was 4 years ago?
    Mr. Franell. I think today, I think, we are seeing--and I 
can speak only to my area so not the whole world broadband 
market but the Pacific Northwest--I see more competition, more 
robust competition, more effective competition.
    And I am part of a group, the Northwest Telecommunications 
Association, which is rural competitive carriers so 
nonsubsidized non-incumbents, and the work that is being done 
by them, competing in markets where, again, the incumbents have 
failed to meet the needs of rural markets.
    I am seeing more competition now than I was, and it is not 
the last 4 years. Again, you know, the cash has only really 
freed up over the last, you know, 12 to 18 months. So that's 
when we have really seen the market, at least in the Pacific 
Northwest, start to really lift again.
    Mr. Johnson. OK. Do you have any suggestions for the 
committee on how we can continue to improve the ability of ISPs 
to provide broadband internet access to rural areas?
    Mr. Franell. So--wow, that is a big question and we have a 
minute left. So, you know, I would say, first of all, find ways 
to encourage competition. Find ways to get the middle mile out 
to these rural areas and then the ISPs like mine will take it 
from there. It is getting that long haul out into these rural 
markets. I mean, it is long distance is what we are talking 
about.
    Certainty is one of the big things, and so I love the idea 
of legislating this instead of being regulatory.
    Mr. Johnson. Right.
    Mr. Franell. So if it is regulatory it just--every 4 years 
it seems like it changes and that is where the uncertainty 
comes in because, you know, we are talking about infrastructure 
that we are looking at, you know, a 5- or 10-year ROI 
sometimes.
    And so to invest that money and not know that I am going to 
have certainty--regulatory certainty, that I am going to be 
able to actually pay the bills for that is really difficult.
    So this is really encouraging to me that we are talking 
about legislating to solve this problem. So it's not just a 
regulatory thing that changes when the Chair of the FCC 
changes. So I hope that answers that.
    Mr. Johnson. I appreciate it.
    Chairman Powell, what has been the impact on consumers over 
the past year of the FCC's restoring the internet freedom 
order?
    Mr. Powell. Well, I think if anyone fairly goes home and 
uses their internet they won't notice any material difference 
from any other time they use their internet other than perhaps 
to notice that it is a lot faster than it was two or 3, 4 years 
ago.
    I would also highlight the fact that both the wireless 
industry and the cable industry have announced major monumental 
investments in new generation of networks. With wireless, you 
are hearing about 5G for the first time and new deployment 
announcements were made in 2018 and 2019, and at CES this year 
the cable industry announced an initiative to move to 10 
gigabits per second into the home over the course of the next 
several years, which is a tenfold increase of any speed 
available today.
    Mr. Johnson. OK. Well, thank you very much.
    Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman's time has expired. He yields 
back.
    The Chair now recognizes the gentleman from Arizona, Mr. 
O'Halleran, for 5 minutes.
    Mr. O'Halleran. Thank you, Mr. Chair. I thank you, the 
witnesses, today for discussing this issue that I have heard 
from so many Arizonans about on a continual basis--an issue 
that has tremendous ramifications for economic opportunity and 
investment across rural America.
    In my district the American people have spoken loudly and 
passionately about net neutrality. They have spoken out clearly 
and strong, supportive in free and open internet where winners 
and losers aren't predetermined and where practices like 
blocking and throttling have no place.
    I, too, support those principles and know how critical they 
are to ensuring every entrepreneur, every small business, every 
school and town across rural Arizona and America has a fair 
shot at success in competing in today's and tomorrow's global 
marketplace.
    Hearing from my colleagues here today and across the aisle 
as well it seems clear to me that we stand in broader agreement 
than what is realized. We agree the internet must be--remain 
open--that the rights of consumers be protected and that 
innovation and entrepreneurship can thrive.
    As has been stated, the question now before us comes down 
to what we can do about it. Rural America needs a permanent 
enforceable solution. We can't get the investments we need as 
long as the courts, other States, and this body all fight over 
a patchwork of rules.
    And so I think that Mr. Soto here took some of my question 
away but I am going to ask Mr. Wheeler and--Chairman Wheeler 
and Chairman Powell the same question, and we have a couple of 
minutes to get this done.
    If we had to waive the many things under Title II, why 
can't Congress write a new title? So I want to get right to the 
question that was proposed by a couple people up here.
    In your experience, how do we stop the creation of a new 
title from becoming stalled and how do we prioritize or 
identify the pitfalls that we are going to be going through if 
we go down that course?
    Mr. Wheeler. That is a great question, Congressman. Thank 
you.
    First of all, we have to agree on what Title II means. To 
my friend, Title II is a list of awfuls. To my friend, Jessica, 
it is a list of positives.
    And we have got to figure out how to do this. On this panel 
I might be unique because when I was running the Wireless 
Industry Association, my members came to me and said, ``We want 
you to go to Congress and have us made common carriers,'' for 
precisely the reason that you said. We need uniformity of 
rules.
    And so this body passed legislation, created Section 332 of 
the Communications Act, which made wireless carriers, at their 
request, into common carriers. That was my a-ha moment as I was 
thinking what do we do on an open internet rule, because after 
that happened, two things.
    Well, one thing happened was that the rules were 
modernized. We went through and did the same kind of 
forbearance, OK. You did.
    And secondly, there were hundreds of billions of dollars 
that were spent after that on the basis of being a common 
carrier under Title II and having that kind of certainty, which 
the industry sought.
    So I think you have put your finger on the key driving 
force, which is how do we have a national program and how does 
that national program adhere to the kind of concepts that have 
always been established in protections of Title II.
    Mr. O'Halleran. I want to give Mr. Powell, or Chairman 
Powell----
    Mr. Powell. I would agree with much of what Mr. Wheeler 
said, with a couple of really critical exceptions.
    Number one, I would note that he said Congress established 
a section making a public determination as to what the 
parameters of regulation for the wireless industry, not the FCC 
creating it itself out of a patchwork of laws available to it.
    Secondly, while wireless telephone service was regulated as 
a common carrier, wireless broadband service was not, and the 
thing that has driven the explosive growth of wireless in the 
last few years is with smart phones, apps, and broadband 
connectivity, ask your kids how many telephone calls they make 
with their Apple iPhone and you will see the difference.
    So I wouldn't facilely assume that Title II is a 
competition empowering a regime. In fact, I think it is the 
regime favored by monopolists.
    Mr. Wheeler. And the reason why nobody wanted----
    Mr. O'Halleran. I have to cut you short----
    Mr. Wheeler. They didn't know----
    Mr. O'Halleran [continuing]. Because I got my 4 seconds to 
say the American people, our citizens, have the right to 
freedom of speech. They don't have that right if we do not 
allow them to have free and open access to these systems.
    Mr. Wheeler. Yes, sir.
    Mr. O'Halleran. They have a right to be heard.
    Mr. Wheeler. Yes, sir.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and I'd like to take 
a point of personal privilege, first of all, to express my love 
and care for John and Debbie Dingell.
    John really was the one who gave me the enthusiasm about 
fighting to get on this committee and, ultimately, on this 
subcommittee when he said--when I asked, as maybe some of you 
did, what the jurisdiction was of this committee and he pointed 
to a globe and said, it is the entire world.
    And Debbie and I serve together well and respect that, and 
so I appreciate your opening comments about supporting and 
giving prayers to John and Debbie at this time.
    Also, congratulations to you as chairman of this 
subcommittee and also to my good friend and the border 
protector leader, Republican Leader Latta. I am happy to serve 
on this subcommittee finally in Congress.
    And in that spirit of bipartisanship, I hope today's 
hearing provides a good foundation for finding a bipartisan 
consensus on net neutrality legislation that, at the very 
least, ratchets down.
    Mr. Franell, I identify with you a bit. Having had a 
firebombing threat, and I take that personally and the FBI, 
thankfully, did as well and took action relative to that.
    My position, which at this time I didn't serve on this 
subcommittee, I wasn't involved in that debate. It is an 
emotional issue and I hope we all can ratchet it down.
    I stand ready and willing to find a compromise that 
protects consumers from anticompetitive harms while not 
sacrificing longstanding bipartisan policies that should and 
could promote broadband expansion in the rural parts of my 
district in southern Michigan, something that remains a 
challenge today and which I hope we address in this Congress.
    So, Mr. Franell, when it comes down to your business 
decisions, which probably mirror a lot of what goes on in my 
district as well like investing in expanded broadband access 
and upgrading networks to 1G and soon 10G speeds, does the 
content preference of a handful of people drive those 
investment decisions? So it is broader than that?
    Mr. Franell. It is broader than that, and, if I may, I 
don't want to lose--please, don't lose sight of the fact that 
there are still large swaths of the United States that are 
underserved or unserved and so any legislation or regulation 
that we put in place together we have to keep in mind the fact 
that whatever we do should not impede our ability to expand 
into those areas and take care of those folks.
    And if I could give one quick----
    Mr. Walberg. So is there any reason for you to block, 
throttle, or----
    Mr. Franell. No. Heavens, no. No. Again, every dollar I 
make, I spend on infrastructure. We responded to an RFP to 
provide broadband to every address in Wheeler County, Oregon.
    Wheeler County is 1,750 square miles. The State of Rhode 
Island is 1,214. So it is larger by a chunk than the State of 
Rhode Island. Rhode Island has over a million people.
    Wheeler County has about 1,400 and so but those folks still 
live, work, contribute and trying to access them and provide 
broadband to them is only possible if I don't have barriers 
that are unnecessary hurdles that I have to jump over. And we 
can provide broadband to them. We responded to the RFP. We are 
hopeful. So there is hope for that, but----
    Mr. Walberg. OK. I hope--I appreciate that and that's based 
upon what the customer wants----
    Mr. Franell. Yes.
    Mr. Walberg [continuing]. What they need and what you are 
able to give and based upon some----
    Mr. Franell. Absolutely. I have no incentive to throttle, 
block, or--that is not the business we are in.
    Mr. Walberg. Thank you.
    Mr. Powell, when you talk about upgrading the networks to 
1G speeds and there are consumer demands for faster internet, 
that is mostly driven by evolving more data-demanding 
application services, websites, like video applications, 
correct?
    Mr. Powell. Yes, sir. It is.
    Mr. Walberg. And as the internet matures, is it fair to say 
that your member companies are going to need to continue 
innovating and finding ways to manage their networks in order 
to ensure consumers get the lawful content that they want and 
that they can access that content without a noticeable delay?
    Mr. Powell. Yes, and your first question, just by way of a 
data point, according to Cisco, by 2021 82 percent of all 
internet traffic will be video. That is a massive bandwidth--
intensive set of applications and we have to dramatically 
increase network capacity.
    Mr. Walberg. And that involves a lot of flexibility too, 
doesn't it?
    Mr. Powell. Absolutely.
    Mr. Walberg. Can you reasonably manage your network if 
broadband is codified as an information service under Title I 
of the Communications Act and is there adequate enforcement to 
make sure you are not gaming this exception?
    Mr. Powell. We believe so.
    Mr. Walberg. So what you are essentially telling me today 
is the FCC can protect consumers from blocking, throttling, and 
paid prioritization and both ISPs and edge providers will still 
be able to manage their networks, innovate, and make up dates 
to keep up with consumers if the FCC is given Title 1 authority 
with robust enforcement?
    Mr. Powell. Yes, and I would add the fact that under Title 
1 you also have the additional enforcement capabilities of the 
Federal Trade Commission, which remain viable under that regime 
but would not be viable under Title II.
    Mr. Walberg. OK. Thank you. I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes my friend and colleague from 
California, Ms. Eshoo, for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman.
    This is an important hearing and I want to thank each one 
of the witnesses.
    Ms. Dixon, I am so proud to represent Mozilla. They are 
headquartered in my congressional district and you gave 
excellent testimony, especially about one of the most important 
things that happens in Silicon Valley and that is new ideas 
being born every single day.
    And if they don't have the tools to do that--we represent 
the innovation capital of our country. So your testimony is 
very powerful.
    To Ms. Livier, you just killed it. You really did. I will 
tell you, you are--your writing is powerful. Your artistry is 
powerful. Your voice is powerful, and amen.
    Ms. Livier. Thank you.
    Ms. Eshoo. I don't know how you do all the things that you 
are doing--an actress, a writer, a UCLA doctoral student. My 
goodness.
    Jessica, thank you. You are always outstanding, and you 
represent a great organization.
    Mr. Franell, you are a good man and you are in the struggle 
of doing something that really needs to be done and that is 
when we have one-third of the American people who either do--
are either underserved or not served at all, you are a hero in 
my book. You have a great--he is not here so he is not going to 
hear me--your congressman is a terrific representative.
    Mr. Franell. Thank you.
    Ms. Eshoo. To Michael Powell, I haven't seen you in a long 
time. It is great to see you. I wish we agreed with each other. 
We don't.
    [Laughter.]
    Ms. Eshoo. But our friendship is going to survive net 
neutrality and to--and both of the former Chairmen, you are 
both really distinguished people who have done extraordinary 
work in the public sector that isn't always appreciated.
    I haven't changed my mind--and this is not a bragging 
point, but I am proud of where I am and it is an important 
debate. Everyone says that they love the internet--how 
important it is.
    Where were so many people when 2 years ago this last month 
when ripping privacy off of the internet went through here like 
a bolt of lightning? Who came in? Were you here, Michael? You 
weren't here. Were any of the people that you represent here? 
No.
    You know, this Title II has just been beaten to a pulp. I 
want to read out what applies. You decided, in the audience, 
and maybe the American people that are listening in how really 
menacing these provisions are.
    It prohibits unjust and unreasonable discrimination in 
charges, practices, and services. So are we for discrimination? 
You know, a lot of references have been made to old laws. You 
know what the oldest one is? The Constitution. You know, that 
has got so much dust on it maybe we should throw that one out, 
too.
    Common carriers that violate provisions of Title II are 
liable for full damages and attorneys' fees FCC can recover or 
order on their behalf. Carriers are liable for actions of 
agents when acting within the scope of their employment. What 
is so horrible about that?
    Provides process for FCC to receive consumer complaints and 
assist consumers in working out the issue with the carrier. Oh, 
my God. God help us if we help people with their consumer 
complaints.
    Protect privacy of consumer information and data--boy, that 
is really darkly menacing, isn't it? Is it just--I am telling 
you, the sky is caving in.
    Ensures fair access to poles and conduits--that is a 
showstopper, isn't it? Is your heart stopping? Ensures access 
to telecommunication services for people with disabilities--you 
know, we can't have that. I mean, that is--that is just off the 
charts.
    Applies certain universal service principles but does not 
require Universal Service Fund contributions. You know where 
the whole thing rests? It rests around just and reasonable 
charges and practices.
    It is money. It is money. That is where the whole debate 
rests, because on the rest of it no one can hold their head up. 
Just as Mr. Franell said, absolutely not--I don't block and 
prioritization and all of that.
    And, you know, the industry has really behaved themselves 
for a while until the court decides what it is going to do.
    But you know what? The worst example is public safety. You 
know, I mean, it just, like, ripped the veil off of this whole 
thing. Firefighters, and someone at the other end saying, you 
know what, if you want more service we will charge you more and 
you can get it, and people's lives are at stake.
    I mean, come on. So, you know, to say that these 
provisions--these are the--what I just read are what apply. 
There are--the majority of Title II there is forbearance.
    So if you don't believe----
    Mr. Doyle. The gentlelady's time has expired.
    Ms. Eshoo. Yes. You don't believe in what is forborne and 
you don't accept this. I don't think these are menacing things 
and I think that they are worth fighting for. I really do, and 
how this is going to be settled I don't know. But the internet 
is an open free accessible internet. I think it is consistent 
with our Constitution and the values of the American people.
    And I thank the chairman for his forbearance.
    [Laughter.]
    Mr. Doyle. The gentlelady's time has long expired.
    The Chair now recognizes the gentleman Mr. Gianforte. You 
are recognized for 5 minutes.
    Mr. Gianforte. From Montana.
    Mr. Doyle. From Montana. Thank you, sir.
    Mr. Gianforte. Yes. Thank you, Mr. Chairman, and thank you 
for the panel for being here today. I appreciate this 
discussion.
    The internet as we know it came to be around 1995 and for 
20 years it was open and free. It ushered in innovation, 
transformed our economy, leading to a new high-tech sector and 
good-paying jobs. That open and free internet gave us Amazon, 
Facebook, Google, and the company my wife and I started in our 
home in Bozeman, Montana.
    We had an idea that the internet might actually make it 
possible for folks to work anywhere--that the internet might 
actually remove geography as a constraint. Our company grew 
from that one little room to one of Montana's largest 
employers. We have 1,100 employees with an average Montana wage 
of almost $90,000 a year.
    Our business is just one example of how a free and open 
internet created more high-paying American jobs and increased 
opportunity and greater prosperity.
    In 2015, however, the Obama administration throttled the 
free and open internet and with unnecessary and unilateral 
regulations. The red tape was a solution looking for a problem.
    The internet is a lifeline for our rural communities. It 
contributes to our rural economies. It ties together high-tech 
and agriculture, education, and health care. One in three 
Montanans lacks access to broadband.
    Unfortunately, these heavy-handed regulatory approach has 
been a challenge for small telecommunications providers in 
our--in my district. Even the smallest Federal mandate could 
impact our rural providers and their ability to extend their 
service to new communities, further exacerbating the digital 
divide that we experience in this country.
    As I look around this committee today and all of the 
testimony, I think we have a lot of agreement. I don't see 
anyone who opposes opening the doors of opportunity to 
Americans in rural communities and I don't know anyone who 
wants to discourage the expansion of broadband into more 
communities. And I don't know of anyone here who wants 
providers to block or throttle consumers. I think we all agree 
on these issues.
    But the internet of 2019 is not the rotary phone of 1934 
and it shouldn't be treated as such with outdated, heavy-handed 
regulations. I came to Washington to solve problems, and that 
is what Montanans expect.
    The committee should work on a permanent legislative fix to 
promote a free and open internet with a light-touch regulatory 
framework. Ultimately, Congress can't and shouldn't turn over 
authority of unelected bureaucrats who can change how they 
treat the internet from administration to administration.
    The internet has changed our economy in this country. It 
has created jobs, provided better quality of life for many 
Americans. We must be cautious about how we approach this, and 
I look forward to working with my colleagues on the other side 
of the aisle to find a solution that works for both sides.
    So in the little bit of time I have left, Mr. Franell, I 
would like to direct a couple of questions to you. You 
testified earlier that these Obama-era regulations cut off 
access to capital for your business.
    Is that correct?
    Mr. Franell. Yes, sir.
    Mr. Gianforte. I would like to have you just highlight for 
us, if you would, when a business like yours that is providing 
broadband to rural communities does not have access to capital, 
what is the impact?
    Mr. Franell. Well, for instance, now that capital is freed 
up--and I will answer it because now we have capital--there are 
three rural communities totaling about 800 or 900 homes to our 
east, and they are remote.
    They currently are all, by any definition, underserved. Our 
plans now--and we have the capital to do it--are to build fiber 
to the home in those three communities with no government 
subsidies. So that will transform those communities in really 
dramatic ways.
    I mentioned the Wheeler County RFP that we responded to. 
With capital, we have a plan to provide robust--at least 25/3 
but in many cases 100-meg--service to every address in Wheeler 
County, and by any definition that is a frontier county, one of 
the most difficult to get to.
    So without that capital, I can't do that. All I can do is 
maintain what I have got.
    Mr. Gianforte. In these communities are you providing 
broadband to schools?
    Mr. Franell. We will provide broadband to--yes, it is not 
just residential. We do anchor institutions, residential, and 
commercial.
    Mr. Gianforte. And do you provide broadband to critical 
access hospitals in these communities?
    Mr. Franell. We do, yes.
    Mr. Gianforte. And without capital you are unable to do 
that?
    Mr. Franell. That is correct.
    Mr. Gianforte. OK. I thank you for your testimony, and I 
yield back.
    Mr. Franell. Thank you.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Butterfield, for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman, and 
thank you to all of the witnesses. I am told that the hour is 
late and we are going to be having to rush to the floor in just 
a few minutes, and so I am going to try to get through this as 
quickly as I can.
    And I am surprised to know that so many of my colleagues 
also represent rural communities, and that is good to know 
because I too represent a rural community in eastern North 
Carolina. But the word ``last mile'' has not been expressly 
mentioned here in this hearing and so I want to put it on the 
table and make sure that we are very clear.
    We have got to continue to work on the last mile. We have 
got to encourage investment. I certainly agree with that and 
internet access in rural communities is of paramount 
importance.
    Too many citizens are without, and they are being 
disadvantaged. So let me move to Chairman Powell.
    Chairman, you offer clear support for net neutrality rules 
including no blocking, no throttling, no paid prioritization. 
We certainly thank you for that, and this tells me that 
providers are taking the net neutrality protection very 
seriously.
    But as you know, net neutrality rules--the 2015 rules--are 
being challenged in the courts and they are working their way 
through the courts. And so we will have a decision, I suppose, 
very soon.
    Why are you calling on Congress to step in, considering 
that these 2015 rules are being litigated? Why should Congress 
step in at this point?
    Mr. Powell. Well, thank you for the question. I think that 
is a good explanation of why, because this is the fourth time 
these rules have gone to court. Each court cycle is 3 years in 
length. Whatever happens----
    Mr. Butterfield. I am a recovering judge now.
    [Laughter.]
    Mr. Powell. It was good to you.
    Mr. Butterfield. Go ahead.
    Mr. Powell. You know, even if we get a decision this 
summer, there is going to be appeals to the U.S. Supreme Court, 
potentially, no matter the result comes out. That is a whole 
another year or so before you reach a decision.
    If the court reaches a mixed decision and part of it is 
upheld and part of it is remand, there's a whole another FCC 
regulatory process that could take another year before we even 
get a final compilation of those rules.
    There comes a point at which it is obvious that the problem 
the Commission struggles with is the absence of clear direction 
from the people's representatives, and that would bring 
finality and moot the court jurisdictional fight and that is 
why we call on you.
    Mr. Butterfield. What regulatory framework will best assist 
in expanding broadband access in rural communities like I 
represent?
    Mr. Powell. One that is very, very favorable to 
incentivizing in investment of private capital because the 
fundamental problem of a rural community is it is inherently 
uneconomic to serve.
    That is, there is either not enough revenue to cover the 
cost of deployment or the cost of deployment is too high, based 
on the amount of revenue available.
    Anything that might raise those costs significantly only 
further impedes the ability to meet those remote areas.
    Mr. Butterfield. Now, you mentioned the need for stronger 
protections for consumers and providers. Do you support 
Congress creating these new protections and what types of 
proposals would you consider to be strong?
    Mr. Powell. I do wholeheartedly. In many ways it is odd for 
me to hear people criticizing the bright line rules. I have 
watched this issue for 14 years. The movement to bright line 
rules was proposed by the most virulent advocates of net 
neutrality in order to bring certainty and clarity to what is 
covered.
    We have evolved with the debate and we fully endorse those 
rules that the Commission adopted in 2015, ones that were 
adopted in 2010, and we are perfectly willing to work with you 
on any new set of rules you might consider.
    Mr. Butterfield. Thank you.
    Finally, Ms. Gonzalez, thank you for highlighting the 
disparities that exist in traditional media for minority 
communities. I share those concerns. Can you tell me the effect 
that net neutrality violations like blocking and throttling 
might have on minority communities? And you have a minute to do 
that.
    Ms. Gonzalez. Yes, Congressman. Thank you for the question.
    You know, I think traditionally we have not had a voice in 
the media in the same way that white folks have. The open 
internet has democratized not only our access to find an 
audience, to create small businesses, to make sure that we are 
able to tell our own stories in our own words.
    And so if there is blocking or throttling that would lessen 
our access to having our stories told in the American fabric 
that has otherwise been defined by mainstream media 
gatekeepers.
    Mr. Butterfield. So are you saying that it would 
disproportionately affect minority communities or----
    Ms. Gonzalez. I would say yes. Yes, because we have had 
less access to mainstream media and the access to the internet 
to tell our stories has been critically important to change the 
narrative and invite people to understand who we are.
    Mr. Butterfield. Thank you for your passion. I support you 
completely.
    Ms. Gonzalez. Thank you, Congressman.
    Mr. Butterfield. Thank you, Mr. Chairman. I yield back 3 
seconds.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. I appreciate this 
hearing and appreciate the witnesses for joining us today.
    I think I am picking up a consensus that Congress needs to 
act, that it needs to develop a new section to prohibit 
throttling, blocking, and discrimination in the internet and I 
think that we can find a way to do that and do it in a way that 
does--keeps the FCC out of the litigation box, if you will.
    That said, my concern about the way Title X has been 
attempted to be used in the past is that it doesn't have 
anything to do with net neutrality and so it is not an 
effective tool for that purpose. That is the reason Congress 
needs to act.
    So let us have some questions about Title II just so we can 
get an idea what could go wrong if you had another FCC that 
wanted to try to go further than even the 2015 FCC.
    So, Chairman Powell, could you confirm whether Title II 
could lead to the following? The Government setting prices.
    Mr. Powell. Yes, that is possible.
    Mr. Flores. The Government determining what services ISPs 
can offer consumers and whether and how they are bundled.
    Mr. Powell. That is also possible.
    Mr. Flores. That the Government could be directing where 
ISPs put their investments and how much they should earn.
    Mr. Powell. Yes.
    Mr. Flores. OK. That the Government can dictate how parts 
of the internet should be interconnected and on what terms?
    Mr. Powell. Most definitely.
    Mr. Flores. OK. And then the Government requiring ISPs to 
share their networks that they built with private capital?
    Mr. Powell. Yes.
    Mr. Flores. OK. And then lastly, and this is a little bit 
of a wild card, could it be used--we are all excited about 
potential of 5G and I know we are talking wireless versus 
wired, but is there any way that Title II could be used to 
inhibit the effective and efficient role out of 5G?
    Mr. Powell. Well, as we said, if 5G is a telecommunication 
service not only the voice component of it but the data 
component of it, then it would--it would suffer from the same 
restrictions that we have talked about all afternoon.
    Mr. Flores. I look at 5G as a dynamic information service 
and communications is only a small part of it.
    Mr. Franell, like you, I represent several rural counties 
in Texas and I am very concerned about trying to make sure that 
those rural counties have the opportunity to move to the 
dynamic side of the digital divide.
    And you discuss in your testimony how every dollar that 
goes to regulation is a dollar that doesn't go into new 
broadband infrastructure. Don't these kinds of onerous 
regulations in Title II crowd out competition and force smaller 
operators out of business?
    Mr. Franell. Yes. I think--and so I have--I have specific 
concerns about Title II, and if you will bear with me let me 
list them real quick.
    Mr. Flores. Be brief.
    Mr. Franell. Real quick.
    Mr. Flores. OK.
    Mr. Franell. First one is determining price, and the cost 
to build the infrastructure and deliver broadband varies wildly 
based on location.
    Mr. Flores. Correct.
    Mr. Franell. And so price--determining price can be 
catastrophic for rural broadband. The second thing is taxation 
and fees on broadband, and if you were to apply State Universal 
Service Fund of Oregon, Federal Universal Service Fund, and 
then franchise fees to broadband because applying Title II and 
removing that exemption you could end up with a 20 to 30 
percent increase in end user broadband costs.
    Mr. Flores. OK.
    Mr. Franell. With no productive outcome.
    Mr. Flores. That is another----
    Mr. Franell. Those are the things that concern me about 
Title II.
    Mr. Flores. OK. OK. That is the reason Congress needs to 
come up with a new title to deal with a new area of technology.
    My friend, Mr. Shimkus, ran out of time and I heard 
Chairman Wheeler and Chairman Powell answer this question that 
he had about prioritizing internet traffic to protect our 
borders.
    I just wanted to see if the rest of the panel agreed. 
Should--Ms. Dixon, should internet traffic be prioritized to 
protect our border?
    Ms. Dixon. We already have an exception in the 2015 order 
with respect to public safety.
    Mr. Flores. So that would be a yes. OK.
    Ms. Livier?
    Ms. Livier. I echo her response.
    Mr. Flores. OK. Mr. Franell?
    Mr. Franell. Yes.
    Mr. Flores. OK. Ms. Gonzalez?
    Ms. Gonzalez. No.
    Mr. Flores. OK. If not, why? Quickly.
    Ms. Gonzalez. I don't want to construct any more walls on 
our border.
    Mr. Flores. OK.
    Ms. Gonzalez. I just am morally opposed to that.
    Mr. Flores. Gotcha. OK.
    And lastly, Mr. Chairman, I would like to--there was a 
comment made in the testimony both verbal and written that says 
that--that says to the extent that Mozilla would not exist 
today without net neutrality. I want to give you some dates, 
for the record.
    The first version of Phoenix, which ultimately became 
Firefox, rolled out in 2002. Firefox 1.0 rolled out in 2004. 
The FCC open internet rule was in effect--was rolled out in 
February of 2015. It became effective in June of 2015. So 
Mozilla prospered before net neutrality was in place.
    Thank you. I yield back.
    Mr. Doyle. Thank you. The gentleman yields back.
    The Chair now recognizes the vice chair of our 
subcommittee, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and welcome to all the 
witnesses. I know it has been a long time sitting there.
    I know many issues have been covered today and I--one of 
the issues that I want to concern ourselves with as we continue 
to grapple with network security in the current next-generation 
networks and the issue has even gained more notoriety because 
of the potential intelligence threats posed by Huawei and ZTE.
    Now, these companies have provided access to inexpensive 
and readily available networking equipment to carriers in the 
U.S. and around the world, and as many of you know, the FCC is 
currently considering how to balance its universal service 
mandate with a need to ensure our communication networks are 
secured from the threat of foreign actors.
    Now, in the larger conversation surrounding net neutrality, 
broadband expansion, and next-generation networks, how should 
we balance these security concerns?
    Now, I expect the Chairmen would have some things to say 
about it, but I was wondering if anyone else on the panel 
wanted to start.
    OK. Mr.--Chairman Powell, would you like to say something?
    Mr. Powell. Yes, Congresswoman. Thank you.
    We have to put front and center concerns--increasing 
concerns about supply chain security and it needs to be 
designed from the beginning up. You know, Congress has 
addressed supply chain issues recently in the National Defense 
Authorization Act, which we support, and DHS recently launched 
a supply chain risk management effort, which NCTA members 
actively participate in.
    So we think this is an extraordinarily important activity 
and we remain committed and highly focused on these issues.
    Ms. Matsui. OK.
    Chairman Wheeler?
    Mr. Wheeler. History is clear that networks are attack 
vectors and we should expect that the network of the 21st 
century is an attack vector for cyberattacks.
    The question is whether we are going to sit back and play 
whack-a-mole in response to those attacks or whether we are 
going to get in front of them.
    Ms. Matsui. Right.
    Mr. Wheeler. The--Mike just talked about the supply chain. 
As we left the Commission, we put out a report on the 
importance of supply chain cyber management to networks that 
the Trump FCC then pulled.
    The Trump FCC has repeatedly said they don't think they 
have any jurisdiction over the security of the network they 
have been entrusted to oversee. They pulled the requirements 
that we put in place for 5G cybersecurity and what we are in 
the process of blowing is the opportunity to deal with cyber as 
a forethought rather than as an afterthought.
    Ms. Matsui. OK.
    You know, I mentioned here as part of this the universal 
service mandate and I know a lot of people probably think this 
is boring but it really isn't. The contribution reform 
regarding the Universal Service Fund--I think in 2006 this 
committee considered an effort aimed to ensure a stable 
contribution base for universal service.
    Universal Service Fund codified the belief that all 
Americans should have access to advanced communication services 
and rural customers should have access to reasonably comparable 
services at reasonably comparable rates.
    Now, contributions to the Federal and universal service 
support mechanisms are currently based on a percentage of 
carriers, interstate, and international end user 
telecommunications revenues.
    A necessary part of this discussion surrounding broadband 
classification is the issue of contribution reform. In the 
first quarter of 2019 the contribution factor is 20 percent and 
that number may well continue to climb.
    Thirteen years ago the committee considered several 
different methodologies for the FCC to use when assessing 
universal service contributions. Mindful we should not make 
broadband access less affordable, but do you have any 
suggestions on how to ensure the long-term stability of the 
Universal Service Fund? And we don't have much time but you 
might comment on it.
    Mr. Wheeler. Yes. You need to expand the base. You cannot 
rely on a shrinking ice cube.
    Ms. Matsui. Absolutely. But we seem to kick the ice cube 
down the road.
    Mr. Wheeler. But every time--every time you want to talk 
about expanding the base you hear what we hear today--oh, that 
is going to increase costs for this broadband service or that. 
We have--we have heard today the importance of delivering to 
Wheeler County--boy, I like that--and to rural America.
    And we have also heard but let us don't raise the money to 
support that.
    Ms. Matsui. Right. OK.
    Mr. Wheeler. That is the conflict and, again, it falls----
    Ms. Matsui. Well, this is a central----
    Mr. Doyle. The gentlelady's time has expired. We are going 
to try to get this in before votes and we still have four more 
witnesses. So I thank the gentlelady for her patience.
    The Chair now recognizes Mr. Welch.
    Mr. Welch. Thank you very much, Mr. Chairman, and I want to 
thank the panel. A big concern I have no matter what we do is 
to get broadband built out on rural areas. You just mentioned 
that, Mr. Wheeler.
    And Mr. Franell, I congratulate you. I live in a rural part 
of Vermont--eight-mile dirt road--and we have high speed 
internet and it is a local small company, nonprofit that 
somehow figured out to do what the big telecoms haven't done 
and listening to you it sounds like you have done that as well. 
So my hat is off to you.
    But on this question of repealing the net neutrality rules 
that were part of the Wheeler FCC, one of the arguments that 
was made is that if we got rid of the heavy hand of regulation 
that it would result in an expansive capital-intensive 
commitment by our major telecom carriers that would build out 
into rural America.
    And it turns out that is a fairy tale. I mean, Chairman 
Pai--because this was a question I think I asked him--he said 
without the overhang of heavy-handed regulation--and I don't 
know where this heavy-handed deal is coming from because 
everyone who is complaining about the heavy hand says they are 
for what the light hand accomplished.
    So there is a lot of rhetoric here. But what Chairman Pai 
said quite specifically was without the overhang of heavy-
handed regulations, companies will spend more building the 
next-generation networks.
    As those networks expand, many more Americans, especially 
low-income rural and urban Americans, will get high-speed 
internet access for the first time. And it turns out my 
skepticism of that assertion has been proven right.
    Today, the Financial Times reported that the big four U.S. 
broadband companies invested less in capital projects last year 
than they did in 2017, which is when the Wheeler net neutrality 
rules were still in place, which totally undermines one of the 
rationales for repealing the net neutrality rules.
    And it also showed--that article--that the four companies 
collectively undertook less capital spending in 2018, and that 
is the first time there has been a drop in 3 years when the net 
neutrality rules were first put in place.
    Mr. Chairman, I would like to put the Financial Times 
article published today in the record, if I may.
    Mr. Doyle. Without objection, so moved.
    [The information appears at the conclusion of the hearing.]
    Mr. Welch. All right. So we all know about the inadequacy 
in rural America. Twenty-four million Americans lack access to 
fixed broadband at high-speed internet speeds. Thirty-one 
percent of Americans in rural areas lack access to broadband. 
Forty-four million Americans lack access to both fixed 
broadband at 25/3 speeds and mobile LTE broadband at 10/3 
speeds.
    I mean, we have--we are on the verge of abandoning rural 
America and that has got to change, and it is not just 
regulations. This is about investment. Somehow you have figured 
out how to do it. ECFiber has figured out how to do it. My 
view, the big four don't particularly care to do it. There is 
not a lot of money to be made for them.
    So now we have a situation where we don't have the 
protection of the net neutrality rules in the Wheeler 
administration in rural America and we are not getting the 
build out. And I will just ask you, Mr. Wheeler, are you 
surprised by the earnings report that indicate no increase in 
capital expenditures since the net neutrality rules came off 
the books?
    Mr. Wheeler. No, sir.
    Mr. Welch. Mr. Powell, can you explain the decrease in 
capital expenditures last year compared to the previous 3 
years?
    Mr. Powell. I can. The headline numbers in those reports 
are wrong because capital expenditure in net involves more than 
investments just in networks. If you look carefully at the 
earnings reports an enormous amount of that capital reduction 
was due to the video business and the CPE business, not the 
network connectivity business.
    If you sorted out those decreases for loss of video 
investment because of competition you would find that the 
increase--there has been an increase in investment in networks.
    Mr. Welch. OK. I don't want to dwell on this but I don't 
understand a word you just said.
    [Laughter.]
    No, and I don't mean that--I really don't understand it and 
maybe I have to be an accountant. But bottom line, these are 
year-over-year numbers and what I am seeing is that whatever 
that explanation is, there is not more internet access in rural 
America. I mean, we need more people like your company.
    Ms. Gonzalez, would antitrust law prevent an ISP from 
blocking access to a lawful website that presents an opinion 
the ISP does not want?
    Ms. Gonzalez. No.
    Mr. Welch. Would antitrust law address the situation, Ms. 
Gonzalez, where an ISP slowed down lawful internet traffic 
after it was pressured to do so by a political figure?
    Ms. Gonzalez. No.
    Mr. Doyle. The gentleman's time has expired.
    Mr. Welch. I yield back. Thank you, Mr. Chair.
    Mr. Doyle. The Chair now recognizes the gentleman from New 
Mexico, Mr. Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    Mr. Chairman, we know that this definitely matters. 
Otherwise, there wouldn't be so much interest, not just here in 
this committee room but with the millions of people across 
America who responded to this order.
    I know that we are still trying to make sense of the number 
of bots and trolls that are part of that filing. But 
nonetheless, I hope that Chairman Pai allows us to make sense 
of who is a real person and which part of those finally should 
be taken out. I hoped that we would all agree with that.
    The foundation of a record in order to make a decision is 
only as solid as the quality of the information that has been 
collected. I think that as Chairman--I would hope, Chairman 
Powell and Chairman Wheeler, you would both agreed with that, 
with the importance of what happens at the Commission.
    Now, when Chairman Pai announced that he was repealing the 
2015 Open Internet Order, he said, and I quote, ``Many more 
Americans, especially low-income rural and urban Americans, 
will get high-speed internet access for the first time and more 
Americans generally will benefit from faster and better 
broadband.''
    Mr. Wheeler, the question that I have there is, is this 
true? Does the repeal of the 2015 Open Internet Order mean that 
more New Mexicans will have access to high-speed broadband and 
how does the repeal of that order meaningfully change the 
economics of building out in rural and tribal communities?
    Mr. Wheeler. Mr. Lujan, this self-serving economics 
manipulation has been used by the Trump FCC like a drunk uses a 
lamppost--to lean against, to support the unsupportable.
    We have heard comments about what investment was before and 
what investment was afterwards. There is only one reason to 
invest and that is to get a return. You don't say, I am not 
going to invest because of regulation. You say, I am going to 
invest because I am going to get a return.
    And one of the things we have to do, especially in New 
Mexico and other rural States, is to make sure that we have 
programs in place that help get that return--a universal 
service support program, which itself needs to be directed 
towards building, towards capital expenditures, rather than 
operating expenditures.
    Mr. Lujan. And, Mr. Powell, in your response to Mr. Welch I 
think you touched on this. Do you have the same viewpoint of 
Mr. Wheeler or would you agree with sentiment of my question?
    Mr. Powell. I would say since 2016, at least in the cable 
industry, we have had a very significant increase in our 
network investment. Two years ago, 4 percent of Americans had 1 
gigabit speeds. As of the end of 2018 in our industry 80 
percent of American households had gigabit speeds. That is a 
pretty substantial----
    Mr. Lujan. But, Mr. Powell, my question is specific to 
tribal communities in rural America in places like where I 
live. Does the same hold true in States like mine with the 
statistics you just laid out?
    So if I went back and I evaluated your response would I see 
a correlation in New Mexico?
    Mr. Powell. Well, you--look, the low-income, hard-to-serve 
areas are a problem we all agree with serving. I am not so sure 
whether any of these order fundamentally change that challenge. 
But, yes, I believe some of this advancement for the citizens 
of New Mexico is just as viable as it is in other States.
    Mr. Lujan. Well, I appreciate your response because we 
agree with these challenges. Chairman Pai said that this was 
going to revolutionize access in rural America and to tribal 
communities in places like where I live and it is not----
    Mr. Powell. Well, he's the other brown guy. I am not the 
one----
    Mr. Lujan. Well--no, but my point is, it is not true. It is 
not true, and that is the concern that I have for the 
constituents that I represent. I will park that aside.
    There are a few things, Mr. Chairman, that I want to get 
into the record, and I have one question for Ms. Gonzalez I 
want to get in. There is an article that I want to submit into 
the record. It is now clear none of the supposed benefits of 
killing net neutrality are real. This points to the question I 
just asked. It is an article by Karl Bode with Motherboard. If 
I may, Mr. Chairman.
    Mr. Doyle. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Lujan. A letter from the internet service providers to 
Chairman Pai with concerns associated with the order as well, 
Mr. Chairman, dated June 27, 2017.
    Mr. Doyle. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Lujan. An article, ``Filtering Out the Bots: What 
Americans Actually Have Told the FCC About Net Neutrality 
Repeal.'' This goes to the essence of my opening statement as 
well, Mr. Chairman.
    Mr. Doyle. Without objection.\2\
---------------------------------------------------------------------------
    \2\ The information has been retained in committee files and also 
is available at https://docs.house.gov/meetings/IF/IF16/20190207/
108845/HHRG-116-IF16-20190207-SD012.pdf.
---------------------------------------------------------------------------
    Mr. Lujan. And statements from my district as well 
associated with the net neutrality that I would like submitted 
into the record. And, Ms. Gonzalez, I apologize. My time has 
expired.
    Mr. Doyle. Without objection.\3\
---------------------------------------------------------------------------
    \3\ The statements have been retained in committee files and also 
are available at https://docs.house.gov/meetings/IF/IF16/20190207/
108845/HHRG-116-IF16-20190207-SD013.pdf.
---------------------------------------------------------------------------
    Mr. Lujan. I will submit this to you for the record, and I 
have a few other questions that I will submit to the remaining 
panelists.
    I really appreciate you all being here. Thank you for 
taking the time. Thank you, Mr. Chairman.
    Mr. Doyle. The gentleman's time has expired.
    The Chair recognizes Mr. Schrader for 5 minutes.
    Mr. Schrader. Thank you very much, Mr. Chairman, and thank 
the witnesses for coming here, and excellent testimony.
    I have to admit I came to this hearing with some degree of 
trepidation about how it might be conducted and I would like to 
think we demonstrated a good civil discourse on a very 
contentious issue that, from my standpoint, everyone seemed to 
be in agreement we should fix.
    Devil is in the details how to go about that, of course. 
But everyone came out in favor of the key elements of net 
neutrality. They at least spoke, which is encouraging from my 
standpoint, and folks seem to be interested in actually solving 
the problem--big quotes on solving the problem--going forward.
    This thing has been floating around since the Bush 
administration. The rules of the road seem to be depending on 
which party occupies the central office, the presidency. I 
think, Chairman Powell, you mentioned in your testimony over 
the last 15 years 6 different FCC Chairmen from both political 
parties have wrestled with this issue. Net neutrality has been 
at the courts 4 different times--more coming up, from what you 
were saying.
    You know, I have to believe this leaves consumers, you 
know, virtually unprotected and businesses completely in the 
dark about what the rules of the road are and that is not good 
for anybody or everybody, at the end of the day.
    Consumers and folks in the industry I think all agree we 
need the transparency, no blocking, no throttling, no paid 
prioritization except for health and public safety--that came 
out here today--and no discrimination. Thank you very much for 
the testimony that Ms. Gonzalez and Ms. Livier gave. I think 
that is very important.
    I am an Article I of the Constitution person at heart. My 
job is to legislate. Congress is supposed to be the legislative 
body. We have far too long abdicated, I think, our 
responsibilities to the executive branch and we end up--put Mr. 
Wheeler and Mr. Powell in tough situations doing the best they 
can. They have done yeoman's work. I appreciate the work both 
of you have done.
    So I think what we have heard so far today is that Congress 
has failed, you know, to provide the FCC with clear legislative 
and congressional direction and I, for one, like several others 
here have also said today favor that we go down that route.
    The last Congress I supported Congress--or excuse me, 
Chairman Doyle's resolution of disapproval of Chairman Pai's 
rule because it is pretty irresponsible for Chairman Pai to 
roll back the Wheeler order without putting in any other, you 
know, enforceable protections for consumers.
    I would love to see our subcommittee work in a bipartisan 
manner, finally codify some rules with all your help and people 
out there and back in my home district to protect consumers and 
provide those clear rules of the road. I think there is an 
opportunity.
    And for my colleagues who are truly concerned following 
Chairman Pai's action about consumers not being protected right 
now, if we choose not to solve this problem in this Congress, 
then those consumers will continue to be at risk at least over 
the next 2 years and quite possibly into the distant future.
    So I think it is time to end the uncertainty for consumers 
and businesses, do our job, legislate net neutrality.
    And with that, I yield back, Mr. Chairman.
    Mr. Doyle. The gentleman yields back.
    I recognize the gentleman from California, Mr. Cardenas, 5 
minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman, and thank 
you so much for having this hearing.
    I take it that everybody at this panel is for open and free 
internet. Is that true?
    Ms. Dixon. I am.
    Ms. Livier. Yes.
    Mr. Franell. Yes.
    Ms. Gonzalez. Yes.
    Mr. Powell. True.
    Mr. Wheeler. You bet.
    Mr. Cardenas. Mr. Chairman, what are we doing here?
    [Laughter.]
    Mr. Cardenas. Problem solved. It is not an issue.
    Some people would have believed that just allowing things 
to be the way they are is solving a problem. But I believe that 
doing nothing in today's space and watching the courts decide 
the fate of consumers, of smaller businesses, good actors like 
yourself, Mr. Franell. I am very impressed with your intent and 
your actions. Thank you so much.
    But not every actor on the playing field that we are 
talking about today has that kind of will and commitment to not 
do things differently if in fact the lanes are not defined and 
that is the biggest problem that we have here.
    I think we have former incredible Chairmen here. I have so 
much respect for both of you, former Chairman Powell and then 
former Chairman Wheeler.
    Every time I talk with you I feel enlightened, and I am not 
joking. I really, really do. The ability for you to articulate 
the decades of knowledge that you have on something that even 
one of my colleagues actually said, I don't even understand 
what you just said.
    [Laughter.]
    Mr. Cardenas. That--that is amazing, and thank you for your 
service. Thank you for your service when you were in the public 
sector as Chairman of the Commission, and thank you for your 
service in the private sector continuing to try to wrap your 
head around how do we make a better world for everybody. So 
thank you so much.
    And to all of you--Ms. Gonzalez, for what you do and I 
believe that you are in the public sector in the sense that you 
work for a not-for-profit and you are just trying to make 
things better for the least among us, and I don't mean it in a 
derogatory way.
    I am talking about the smallest of the smallest businesses, 
the mothers and fathers who--they just want to make a life for 
their family better and this happens to be the space that they 
are doing it in.
    And for those of you who are in the smaller space on the 
playing field, God bless you, because you can get squashed like 
a bug or run over in a moment's notice and most people wouldn't 
even know you are gone. So thank you for all that you do.
    But, Ms. Dixon, if you want to take the opportunity. I 
think that there was a question--that my esteemed colleague 
from Texas, Mr. Flores, mentioned Firefox and I think that you 
may have wanted to comment but ran out of time.
    Ms. Dixon. I did. I think that the notion that Firefox and 
that Mozilla was created at a time when that neutrality rules 
weren't in play is just silly. We are starting back from the 
status quo. As much as I have a ton of respect for Chairman 
Wheeler, he didn't actually create that neutrality. That 
neutrality existed on the internet for years and years and 
years.
    What we had, we had principles under Chairman Powell's 
regime in the FCC. We also had merger agreements that had 
restrictions with respect to net neutrality. We had lots of 
protections in play and that is what the web was founded on.
    So we were founded--Mozilla and Firefox--during an era when 
that neutrality was strong. It is now, today, for the first 
time that we actually don't have net neutrality rules that 
protect consumers.
    Thank you.
    Mr. Cardenas. OK. And the thing is that when you talk about 
protections I call them lanes. I happen to have been a small 
business owner at one time in a regulated industry and some of 
my colleagues would get upset when more regulations would come 
along.
    And I would look at those regulations and read them, and 
then I would realize that many of them actually helped us stay 
within our lane and actually helped us make sure that we stayed 
out of the legal system because we had lanes that we could 
follow.
    And when we followed them we could defend ourselves and say 
we did proper practice when somebody was trying to sue us or 
what have you and things of that nature.
    So lanes, to me, are very important and this is an arena 
where the lanes are basically muddled and right now the courts 
just might even make it even worse as far as less lanes for us 
to--for everyone to follow by.
    But also, Mr. Franell, again, my compliments to you. But at 
the same time, you mentioned something in your opening 
statement about the bad actors and kind of like, you know what, 
the bad actors they will get weeded out because they will lose 
business.
    But with all due respect, the smallest businesses in this 
space can disappear almost overnight because of a bad actor 
that they had, you know, run into like a Mack truck. That is--
that is my concern--that when we have lanes less of that, the 
smallest players on the field, disappear.
    And I just want to thank Vanessa, if you don't mind--I met 
your daughter--if you don't mind me mentioning her name. People 
like Vanessa, this is the means of which she feeds her 
daughter, Alina, and I just got to tell you we have to make 
sure that what we do, Mr. Chairman--and I'll yield back in just 
2 seconds--we have to think about everybody, not just the 
largest players on the playing field.
    Thank you, and I yield.
    Mr. Doyle. The gentleman yields back.
    The committee would like to welcome Mrs. McMorris Rodgers, 
who waived on today, and you are welcome to speak for 5 
minutes.
    Mrs. McMorris Rodgers. Great. Thank you. Thank you, Mr. 
Chairman. I appreciate the chance to join you all today on an 
issue that I believe should have been resolved probably many 
years ago in a bipartisan fashion.
    Up until really 2015 there had been decades of bipartisan 
consensus on the principles of an open free internet--
principles that would ensure consumer protections without 
disrupting the free flow of information and innovation that has 
made it the cornerstone of our 21st century economy.
    This debate isn't about the merits of an open free 
internet. I support an open free internet. I think we have 
large agreement on supporting an open free internet. Colleagues 
on both sides of the aisle have mentioned that.
    This is really about how we as Americans want to shape the 
future of our economy. Do we want to regulate the internet as a 
1930s style utility where we have more burdensome regulation 
and price controls that I fear will stifle innovation?
    An internet that will leave many rural and underserved 
communities behind, like in my district? Or do we want a 21st 
century internet that will juice our economy, create jobs, and 
allow us to be a leader in new cutting-edge technologies like 
AI or IoT, autonomous vehicles--an economy that utilizes 
advances in technology to lift people out of poverty and 
provide them with more economic opportunities?
    I think we all agree that we want the latter. That is why I 
am introducing the Promoting Free Internet Freedom and 
Innovation Act, and this bill is based upon Washington State 
law. It would codify the bright line rules of net neutrality, 
specifically, no blocking, no throttling, no paid 
prioritization.
    This is a solution that passed in my home State on a widely 
bipartisan basis, a bill that was signed by Democratic 
Governor, supported by Democrats in the congressional 
delegation, and was praised by former FCC Commissioner Clyburn.
    But, most importantly, it is a solution that does not 
institute changes to the internet that would stop innovation, 
stifle broadband deployment, and leave millions of Americans 
behind--a solution that codifies the key principles on which 
both parties agree and have agreed for many years.
    The internet has revolutionized every single aspect of our 
lives. It has changed how we communicate. It has changed how we 
approach our own personal health or travel across town.
    It has improved the quality of life for millions of 
Americans. We all agree it is vital to our future and the 
opportunity that it provides for our economy and hardworking 
men and women in our 21st century is really endless.
    I want to once and for all resolve what I believe is a 
manufactured political debate and provide certainty to the 
internet ecosystem so that we can make that opportunity a 
reality for every single American.
    So I would like to focus my questioning on the Federal 
versus State debate. While I believe that the provisions of the 
Washington State law are reasonable and consistent with the 
principles both parties have been disusing at the Federal level 
for years now, I do not believe that is wise to regulate by a 
State-by-State approach.
    The internet is the key to interstate commerce. It does not 
end at our borders and a Federal solution is the only way 
forward.
    Chairman Powell, can you briefly discuss why pursuing an 
open internet regulation at the State level can be harmful to 
innovation and consumers and why do we need the Federal 
solution?
    Mr. Powell. I remember when the internet really rose there 
was an economist author named Frances Cairncross who said this 
was the death of distance. This was a network that knew no 
boundaries, respected no geographical limitations, and 
consequently can't really responsibly be regulated in buckets 
and chunks.
    We have understood those principles since the days of 
interstate commerce in trucking, in the environment, and all 
kinds of areas where you just don't have an ability to 
logically organize law around different State jurisdictions.
    I think there is no question that the internet is 
interstate in nature. It would be hazardous to regulate it in 
any other than a single comprehensive way.
    Mrs. Rodgers. As a followup, do you believe the FCC 
currently has the authority to preempt attempts to regulate 
this issue at the State level?
    Mr. Powell. I do. That has been their position and I also 
believe that it would fall under conflict preemption, meaning 
the two regimes are not reconciled.
    Mrs. Rodgers. And one final question--do you believe that 
the Washington State law and this legislation are consistent 
with the four internet freedoms you described in 2004 when you 
were Chairman of the FCC?
    Mr. Powell. My limited understanding of it is yes. I think 
there are some aspects of it be examined more carefully like 
specialized services. But I also would note it's a really 
productive piece of work and didn't include anything that looks 
like Title II.
    Mrs. Rodgers. Thank you. OK. I yield back.
    Mr. Doyle. Thank you.
    The Chair is going to request unanimous consent to enter 
the following documents into the record: an article from Free 
Press, a letter from Consumer Reports, a letter from the 
American Library Association, a letter from Tech Freedom 
Coalition, an article from Motherboard, an article from 
Financial Times, and a 2010 letter to former FCC Chairman 
Genachowski.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. I want to thank the witnesses for their 
participation in today's hearing. We genuinely appreciate you 
coming here and I want to remind Members that, pursuant to the 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by the 
witnesses who have appeared.
    I would ask each witness to respond promptly to any such 
questions that you may receive.
    At this time, the subcommittee is adjourned.
    [Whereupon, at 2:20 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
